<html>
<title> - ROUNDTABLE ON RELIGIOUS FREEDOM IN CHINA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                ROUNDTABLE ON RELIGIOUS FREEDOM IN CHINA
=======================================================================





                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China












         Available via the World Wide Web: http://www.cecc.gov


                        U.S. GOVERNMENT PRINTING OFFICE
                                WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001














              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             NANCY PELOSI, California
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Opening statement of Ira Wolf, Staff Director, Congressional-
  Executive Commission on China..................................     1
Quigley, Thomas E. U.S. Conference of Catholic Bishops...........     2
Marshall, Paul, senior fellow, Center for Religious Freedom, 
  Freedom House..................................................     5
Aikman, David, foreign affairs consultant, and former Time bureau 
  chief in Beijing...............................................     8
Kung, Joseph, president, Cardinal Kung Foundation................    10

                                APPENDIX
                          Prepared Statements

Quigley, Thomas E................................................    34
Marshall, Paul...................................................    36
Kung, Joseph.....................................................    39













                ROUNDTABLE ON RELIGIOUS FREEDOM IN CHINA

                              ----------                              


                        MONDAY, MARCH 25, 2002,

                           Congressional-Executive,
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room SD-215, Dirksen Senate Office Building, Mr. Ira 
Wolf (staff director of the Commission) presiding.
    Also present: Mr. John Foarde, Deputy Staff Director; Mr. 
Geoffrey Gleason, Office of Congressman Wolf; Ms. Holly 
Vineyard, U.S. Department of Commerce; Mr. Robert Shepard, U.S. 
Department of Labor; Ms. Karen Finkler, Office of Congressman 
Pitts; Ms. Sharon Payt, Office of Senator Brownback; Ms. Teresa 
McNeil and Ms. Amy Gadsen, U.S. Department of State; and Mr. 
Michael Castellano, Office of Congressman Levin.

 OPENING STATEMENT OF IRA WOLF, STAFF DIRECTOR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Mr. Wolf. Let us get started.
    I would like to welcome everyone to the third of the public 
roundtables that we have been holding on behalf of the 
Congressional-Executive Commission on China.
    Today we are going to look at religious freedom issues in 
China, and we have four distinguished members of our panel: 
Thomas Quigley, from the U.S. Conference of Catholic Bishops; 
Paul Marshall from Freedom House; David Aikman, a consultant on 
foreign affairs and former Time bureau chief in Beijing; and 
Joseph Kung, president of the Cardinal Kung Foundation.
    I would like to note that, although the title of today's 
hearing is religious freedom, we are actually focusing on the 
issues of freedom to practice Christianity.
    We will have a roundtable on June 10, that will focus on 
Tibetan Buddhism, as well as Islam and Uighur Muslims.
    Before we turn to today's panel, let me just note that the 
next roundtable will be on April 15, and we will be discussing 
the Internet and free flow of information in China.
    Also, the next full Commission hearing, chaired by Senator 
Baucus and Congressman Bereuter, will be held on April 11. The 
topic will be human rights and legal reform.
    We are going to follow the usual format today. Each panel 
member will have 10 minutes to make his presentation. The 
yellow light will go off at minute 9, and that means please try 
and finish off the last bit of your commentary.
    After the four presentations, each of the staff members 
will have 5 minutes to ask questions. Then, depending on the 
time, we will continue going around until everyone is 
exhausted.
    We will go from left to right and start with Tom Quigley.

  STATEMENT OF THOMAS E. QUIGLEY, U.S. CONFERENCE OF CATHOLIC 
                            BISHOPS

    Mr. Quigley. Thank you for this opportunity to offer some 
brief comments on the issue of religious freedom today, 
especially with reference to the Catholic Church in the 
People's Republic of China.
    I will confine my remarks to several recent developments in 
China that directly touch on the role of the Catholic Church 
there.
    First, some numbers. Out of well over a billion people, 
Chinese Catholics number between 8 and 12 million. The 12 
million is probably safe; roughly 4 million in the open, 
registered church, roughly 8 million in the underground, or 
unregistered.
    The government, of course, does not recognize the latter, 
so official figures have it that there are about 100 million 
believers in the country, less than 1 percent--which is a gross 
under-count--of which 4 million, according to the government, 
are Catholic.
    The number of Catholics is small, growing at a very slow 
pace, but 12 million is still far larger than the roughly 3 
million Catholics before the Communist takeover. As Dick 
Madsen, one of the best China church-watchers in this country 
likes to note, there are a lot more Catholics in China than 
there are in Ireland.
    Let me frame these remarks by several fairly recent events. 
Last year, 2001, was significant in a couple of ways for the 
Church in China. Just over a year ago, in April, there was the 
Hainan Island collision and the downing of the U.S. spy plane, 
which, coming on the heels of the Belgrade embassy, plunged 
Sino-American relations very low indeed.
    But then the plane business was resolved. Secretary Powell 
went to Beijing in July, and President Bush planned his State 
visit to China for October, coinciding with the APEC meeting in 
Shanghai.
    Then came 9/11, which caused the State visit to be 
postponed, but the President still went ahead with a quick Asia 
trip in October, enabling him to meet briefly with Jiang in 
Shanghai, and then finally to have the postponed State visit 
just a month ago, in late February.
    These United States-China visits have a bearing on the 
matter of religious freedom, because in both his October and 
February meetings with Jiang, Mr. Bush raised quite 
dramatically the issue of religion, including his own faith 
commitment, and pressed Jiang to grant religious liberty, to 
free Catholic clergy, especially bishops under detention, and 
to pursue dialog with the Vatican, as well as with the Dalai 
Lama.
    The question of encouraging China's dialog with the Holy 
See is something that both the Vatican and our bishops' 
conference have consistently urged our government for some 
time.
    The essential goal of the dialog is the restoration of 
normal relations between the Holy See and the People's 
Republic, relations which the Chinese broke off when they 
expelled the Apostolic internuncio, Antonio Riberi, and 
arrested, imprisoned, and finally deported all the foreign 
clergy and religious in 1951.
    But the more immediate, practical goal of such talks, aimed 
at allowing a Vatican representative to reside in Beijing, 
whether or not full diplomatic relations are restored, is the 
opportunity for the Vatican to explain and interpret the 
sometimes complex reality of the Church to the Chinese 
authorities.
    Thus, when Bishop X is accused of breaking the law, simply 
because he declines to have his ministry governed and 
controlled by the CCPA--the Chinese Catholic Patriotic 
Association--the Papal representative could at least make the 
case that the bishop's arrest serves no valid purpose, that it 
can more likely lead to popular discontent than to dampen it, 
that it is in fact counter-productive to China's desire to be 
fully accepted into the world community which places high value 
on the free expression of religious belief, and so on. And 
thus, by persistent diplomatic pressure, changes in this 
behavior might eventually be effected.
    The other effect of 9/11 was, of course, China's apparent 
signing on in the war on terrorism, resulting in the greatly 
improved United States-People's Republic of China [PRC] 
relations, evidenced clearly in the Bush State visit last 
month. The President referred to the relationship as 
``constructive and cooperative.''
    Now, a second set of events, these specifically of the 
Church, were the two Ricci meetings last October, one in 
Beijing and one in Rome. They were to commemorate the 400th 
anniversary of the arrival in Beijing in 1601 of the great 
Jesuit scholar and missionary, Matteo Ricci.
    There was at that time a flurry of press speculations that 
these symposia would herald a major breakthrough in China's 
relations with the church, even rumors that China was about to 
let the Holy See set up an apostolic delegation in Beijing.
    The speculation was totally groundless, of course, but the 
Ricci events did produce one of the most dramatic developments 
in the centuries-long relationship between the Catholic Church 
and China.
    On October 24, Pope John Paul II issued a statement to the 
Sinologists then meeting at Rome's Gregorian University on the 
theme of Encounters and Dialogue. In the course of a fairly 
long discourse tracing the story of Ricci's contribution, the 
Holy Father turned to the present.
    Then, after expressing the Church's affection for the 
Chinese people and her desire to give service for the good of 
all the people, and noting the long line of generous 
missionaries and the many works of human development they 
accomplished down the centuries, especially in the fields of 
health care and education, he said the following.

    History, however, reminds us of the unfortunate fact that 
the work of members of the Church in China was not always 
without error, the bitter fruit of their personal limitations 
and of the limits of their action. Moreover, their action was 
often conditioned by the difficult situations connected with 
complex historical events and conflicting political interests. 
.  .  .
    In certain periods of modern history, a kind of 
``protection'' on the part of European political powers not 
infrequently resulted in limitations on the Church's very 
freedom of action and had negative repercussions for the Church 
in China. .  .  .
    For all this, I ask the forgiveness and understanding of 
those who may have felt hurt in some way by such actions on the 
part of Christians.

    This extraordinary apology by the Pope was met by basically 
embarrassed silence by the government. The spokesman for the 
foreign ministry was trucked out to repeat the standard mantra, 
the Holy See must break relations with Taiwan and the Vatican 
must not use religion to interfere in China's internal affairs.
    Interfering in China's internal affairs is a code term for 
China's rejection of its own constitutional guarantee of 
religious freedom. It is China's denial of the Church's right 
to exercise its normal and customary role of appointing bishops 
as heads of dioceses all over the world, and thus a 
government's interference in the internal affairs of the 
Church.
    Why were the authorities unable to react more positively to 
this quite extraordinary papal apology? For the same reason 
that they grossly overreacted to the October 1, 2000 
canonization of the Chinese martyrs, as a smokescreen to cover 
over the existing divisions within the Party.
    The overriding factor right now is the upcoming Party 
Congress this fall, which is expected to usher in a new, 
somewhat younger, leadership. Bishop Joseph Zen, Coadjutor of 
Hong Kong, holds out the hope that this new leadership, and the 
rising of a political class of even younger people, many of 
whom will have studied abroad, will gradually bring about 
genuine change. Gradually, perhaps over a period of 3 years, he 
thinks.
    And change, openness, is the only way to avoid the bloody 
outcome that some foresee; ``there are many unhappy people in 
China,'' the bishop notes.
    In the meantime, religious expression continues to be 
either repressed, sometimes brutally, or controlled, although 
the controls over the registered Catholic Church are showing 
signs of wear and ineffectiveness. The vast majority of all the 
registered bishops have been reconciled with Rome, which the 
government obviously knows.
    The power of the Patriotic Association is greatly 
diminished and given to sometimes desperate gestures, such as 
the staged ordination of bishops on Epiphany 2000, timed to 
coincide with the Pope's ordaining 12 bishops that same day.
    What is the status of religious persecution of Catholics 
right now? Over the past months, we have been treated to a kind 
of good cop/bad cop reporting on the State of religion in 
China.
    The Wall Street Journal, on February 6, claimed that 
``China is rethinking its heavy-handed politics and taking a 
more tolerant line on mainstream groups.'' But at the same 
time, we know of the secret documents smuggled out by officials 
of the State Security ministry and other government agencies 
that envision a still tighter crackdown on unauthorized 
religious groups.
    And at the beginning of Lent this year, mid-February, the 
news agency of the Vatican's missionary congregation issued a 
list of some 33 Catholic bishops and priests known to have been 
arrested, or disappeared, or under house arrest.
    The best-known of these, and the one for whom American 
ambassador Clark Randt has intervened, is Bishop James SU 
Zhimin of Baoding, a well-respected figure who has been 
repeatedly arrested, released, and re-arrested. His whereabouts 
is presently unknown.
    Is the end game in sight? We will have to wait to see what 
the new leadership is like and, if more open to change, how 
long it will take for them to consolidate their positions. It 
seems clear that Jiang's modest moves for change in 1999 lost 
out to the hard-liners.
    His government now at least has acknowledged the merit of 
issuing human rights reports by putting out their own report on 
U.S. human rights record, detailing the many perceived 
violations of human rights in this country, including, as one 
chapter has it, ``Wantonly Infringing upon the Human Rights of 
Other Countries.''
    Those of us who advocate for international human rights and 
religious freedom have our work cut out. I cite the instance of 
a recent and very detailed policy brief by the Carnegie 
Endowment for International Peace, ``Rebalancing United States-
China Relations.'' Amidst a wide-ranging list of issues 
discussed, there is not a word about human rights, still less 
about religious freedom.
    Thank you.
    [The prepared statement of Mr. Quigley appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    Next is Paul Marshall.

STATEMENT OF PAUL MARSHALL, SENIOR FELLOW, CENTER FOR RELIGIOUS 
                     FREEDOM, FREEDOM HOUSE

    Mr. Marshall. Thank you, Mr. Chairman, for this opportunity 
to join the roundtable on the issue of religious freedom in 
China. We commend the Commission for monitoring this issue.
    We are alarmed by the mounting repression against the major 
unregistered religious and spiritual groups in China, including 
Protestants and Catholics.
    As you know, Beijing controls the five authorized 
religions--Protestantism, Catholicism, Buddhism, Islam, and 
Taoism--by the Religious Affairs Bureau, controlled by the 
United Front Work Department, itself controlled by the Central 
Committee of the Communist Party. Other groups which are not 
included in that are either unregistered, or a group such as 
Falun Gong, which is banned completely.
    In recent years, China has developed a new tactic of 
labeling religious groups as so-called ``cults,'' and then 
cracking down on them. This intensifies the repression of non-
approved religion.
    With the introduction of laws regulating heretical cults on 
October 30, 1999, religious offenses can now be classified as 
threatening national security and possibly punishable by life 
sentences, or even death.
    This tactic has been increasingly employed in the last 2 
years. Government spokespersons maintain that these believers 
are not being repressed by restrictive religion laws, but 
instead are criminals, disrupting public and social order laws.
    The result of these new laws and the move against so-called 
cults has been a marked deterioration in religious freedom in 
China over the last year, and in particular since Congress 
approved PNTR [Permanent Normal Trade Relations].
    China has not ratified the International Covenant on Civil 
and Political Rights and has not provided information or 
permitted access to religious leaders who are in detention.
    This heightened crackdown may stem from frustration and 
political insecurity as authorities observe the astonishing 
revival of religion throughout China, particular in 
unsanctioned groups.
    Thirteen million Protestants are now in the registered 
churches with the government, but unregistered Protestants may 
number over 50 million in house-churches.
    Let me also add that, while this roundtable is focused on 
Catholics and Protestants, particularly this month I would just 
like to raise the situation of Falun Gong, which may at the 
moment be facing its worst repression ever.
    As you know, following a television program in Changchun on 
March 5, there has been increased repression. According to 
Falun Gong spokespersons, ``police have been ordered to 'shoot 
on sight' anyone giving out written materials for Falun Gong.''
    In the city of Changchun, perhaps 5,000 or more 
practitioners have been arrested in the last 3 weeks, and 
perhaps 100 of them have died.
    Moving on to Catholics and Protestants. I will be very 
brief on the Catholic situation, as we have two able 
spokespersons here. We are concerned that at least 33 Catholic 
bishops and priests are currently in prison under house arrest 
or under strict police surveillance.
    The Vatican's Fides News Service lists 13 bishops who have 
been arrested, as well as 20 priests, and says explicitly that 
its list is incomplete.
    Among Protestants, one of the most striking cases is Pastor 
Gong Shenliang, who was sentenced to death on December 5 on 
charges of operating an ``evil cult,'' and on apparently 
trumped-up charges of rape and assault.
    In a letter from one of the members of his church dated 
December 31, 2001, a woman describes the torture that was 
applied to them by police to pressure them to testify against 
Gong.
    ``Ma and her boy Longfen were both beaten almost to death. 
Li Enhui fell unconscious and was awakened with cold water and 
beaten again. They did this to her non-stop for 7 days and 7 
nights. ``On July 20,'' last year, ``we heard the news that Yu, 
who was arrested in Ma's house, had been tortured to death.''
    To try to arrest Gong, the police arrested 63 of his 
congregants, severely beating at least 25 of them and torturing 
them with electric cattle prods.
    I will focus the rest of my remarks concerning China on 
what was revealed in secret Chinese Government documents, as I 
already mentioned, released in February of this year.
    They detail an official crackdown against large, 
unregistered churches and other religious groups nationwide. 
Copies of the documents were provided to Freedom House by the 
Committee for Investigation on Persecution of Religion in 
China.
    These seven documents, issued between of April 1999 and 
October 2001, detailed national, provincial, and local security 
officials' role in repressing religion. They show that China's 
Government, at the highest levels, aims to repress religious 
expression outside of its control and is using more determined, 
systematic, and harsher criminal penalties in this effort.
    Hu Jintao, regarded as the successor to President Jiang 
Zemin, is quoted in them as endorsing the drive against the 
Real God Church. The Minister of Public Security is quoted as 
giving the order to ``smash the cult quietly.''
    Several of these documents focus particularly on measures 
to ``smash'' the South China Church and the Real God Church, 
which, Chinese authorities state, rivals Falun Gong in its 
reach and dangerous effects.
    Other documents list several Christian churches, Falun 
Gong, the Unification Church, and other banned religious 
groups. They list 14 in all, describing them as evil cults.
    The documents also note with palpable alarm that, for 
example, the Real God Church is growing rapidly throughout 22 
of China's provinces. One of the documents says that the inner 
circles of the Communist Party and government officials have 
secretly joined the church.
    They also show once more that China, as an officially 
atheist state, still arrogates to itself the authority to 
define orthodoxy, determine dogma, and designate religious 
leaders.
    The documents are often notable for their crudeness is 
understanding the religions they report to control. For 
example, one document uses the basic Christian doctrine that 
Christ is in every believer to accuse churches of ``deifying'' 
their leaders, a practice which they then define as ``cult-
like.''
    They also show particular concern about public unrest over 
China's entry into the World Trade Organization [WTO], and it 
ties this to Western support of democracy movements and 
religious groupings, especially Falun Gong. It accuses the 
Vatican of ``still waiting for any opportunity to. . . draw the 
patriotic religious believers up to them and incite them to 
rebel.''
    In Document 4, activities such as ``praying for world 
peace,'' ecumenical relations between churches, printing 
religious publications, or developing a diocesan, parish, and 
prayer group-like organizational structure, are all seen as 
dangerous.
    They view with particular alarm ecumenical relations 
between the Protestant house-church Real God and the 
underground Catholic Church. The Real God Church is said to 
have ties with Tiananmen Square student protest leaders, as 
well as the Communist Party and the government.
    Measure to be taken against the banned religious groups 
include surveillance, the deployment of special undercover 
agents, the gathering of ``criminal evidence,'' ``complete 
demolition'' of a group's organizational system, interrogation, 
arrest, confiscation of church property, and homes at which 
meeting are held.
    The second document repeatedly refers to the use of 
``secret agents'' to infiltrate what it calls cults, 
underground Catholics, and also businesses, joint ventures, 
people with ``complicated political backgrounds,'' prestigious 
colleges and universities, and other organizations.
    As the United States Commission on International Religious 
Freedom has recommended, we, too, would recommend that United 
States policy should press the Chinese Government to end its 
current crackdown on religious and spiritual groups; to reform 
its repressive legal framework and establish an effective 
mechanism to hold officials accountable for religious freedom 
and other rights violations; to affirm the universality of 
religious freedom and China's international obligations, and 
also to ratify the international covenant on civil and 
political rights; fourth, to foster a culture of respect for 
human rights.
    The United States Government's China policy should support 
and, as appropriate, fund religious freedoms and other United 
States advocates in China, as well as those, wherever they are 
found, who are promoting the rule of law, legal reform, and 
democracy there.
    The United States Government should make sure that Tibetan 
and other ethnic minorities, as well as representatives of 
religious communities and other nongovernmental organizations, 
are included in exchange programs with China.
    Through public diplomacy, the United States should directly 
explain to the Chinese people this message and the reasons for 
our concerns. Such efforts should include the expansion of 
Radio Free Asia and Voice of America broadcasts throughout 
China.
    Since the United States permits Chinese media, including 
the official Chinese Central Television Company, access to 
American markets, we should ensure that United States media, 
including broadcast companies, are allowed a similar presence 
in Chinese markets.
    Also, the United States Government should ensure that 
United States companies doing business in China do not engage 
in practices that would facilitate violations of religious 
freedom and other human rights, such as, for example, 
disclosing employees' religious or spiritual activities or 
affiliations to Chinese Government officials.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Marshall appears in the 
appendix.]
    Mr. Wolf. Thanks very much.
    Next is David Aikman.

  STATEMENT OF DAVID AIKMAN, FOREIGN AFFAIRS CONSULTANT, AND 
              FORMER TIME BUREAU CHIEF IN BEIJING

    Mr. Aikman. China has been going through one of the most 
remarkable periods of growth in its Christian population of any 
country in the last 2,000 years, in the history of 
Christianity.
    Mr. Quigley has already mentioned the expansion of the 
Roman Catholic Church from an estimated 3 million in 1949 when 
the Communist Party came to power in China, to an estimated 12 
million currently.
    The figure for Protestants, although this is based upon 
estimates and there were no reliable statistical firm notions, 
is even more startling. From a figure of less than three-
quarters of a million, or around three-quarters of a million 
for all of China in 1949, Protestants have now increased to the 
point where the Three Self Patriotic Movement, which is the 
officially sponsored Protestant organization controlling 
permitted Protestant religious activity, says that there are 
about 20 million Protestants, of whom 15 or so are actually 
associated directly or are members of Three Self Patriotic 
churches.
    But the Public Security Bureau of China has privately, and 
the State Statistical Office on other occasions, has released 
figures that give us reason to believe the number of Protestant 
Christians in China may approach 70 million.
    That is an expansion of less than 1 million to 70 million 
since 1949, most of that growth having been in the period from 
1980 to the current year, the reason being that the open-door 
policy inaugurated by Deng Xiaoping, China's Communist leader 
at that time in 1979, resulted in large numbers of clergy being 
released from prison and a sort of uncertainty about what the 
government's religious policy really should be. For a period of 
time in the early 1980's, there was quite a remarkable degree 
of unofficially approved freedom.
    The growth of the Christian church has caused great 
perplexity in the Chinese Communist Party and in the leaders of 
the State Council, so much so that in mid-February there was a 
working meeting held by leaders of the State Council and the 
Communist Party in Beijing, attended by and addressed by 
President Jiang Zemin, Prime Minister Ju Rongji, and others, in 
which approximately the following was said. I am paraphrasing, 
of course.
    According to Jiang Zemin, religion is an extremely 
important element in China. Some people interpreted this 
comment as the opening of a new period of liberalization by the 
regime authorities toward religious expression, but so far 
there has been no indication of anything like that at all.
    In fact, one of the follow-up points made by President 
Jiang, who of course is also the head of the Communist Party, 
was that religion was so important, that the officials both of 
the State structure and the Party itself should focus very much 
on working to control it, or if you like, to cope with it.
    In practice, what this has meant has been a number of 
different things in different parts of the country. The 
phenomenon of Falun Gong, which suddenly erupted into public 
view in April 1998, led to a serious crackdown upon all 
religious groups that were not registered with the government, 
but particularly on Falun Gong itself.
    The manifestations of demonstrations by Falun Gong 
practitioners against the government led in turn not only to 
very harsh crack-downs on Falun Gong, but to the passage of a 
law against the religious cults that Dr. Paul Marshall has 
already referred to.
    In practice, what this means, is that local Public Security 
Bureau officials, that is, policemen, decide whether or not 
something is a cult. So, for example, one of the groups that 
was singled out as a cult in some very interesting secret 
documents recently smuggled out to the United States were 
people who believed that you could pray against sickness, and 
this was something that Christians might actually want to do 
occasionally, and also that you could exorcise demonic spirits.
    This was also considered cult-like, although, of course, it 
has been part of mainstream Christianity for the last 2,000 
years. Catholic, Protestant, and Orthodox all subscribe to some 
form of these practices.
    What we can expect now, I think, is as has happened in the 
past, different regional groups, different provincial police 
leadership responding differently to religious phenomena in 
their own local areas. It is evident that some parts of China 
have Public Security Bureau leadership that is more tolerant 
and more respectful of private religious practice than others.
    Yet, some parts are extremely repressive. Hunan Province, 
for example, which has seen the largest Protestant growth of 
any part of China in the last 20 years, is particularly harsh 
upon the unregistered leadership groups in its midst.
    I do not have any specific policy recommendations for the 
United States, except I share very much Dr. Marshall's 
recommendations for public diplomacy, at least at the very 
outset of U.S. official positions.
    I think the Chinese Government and the Chinese people, 
insofar as this is possible, need to be informed not only of 
their obligations as signatories to international human rights 
conventions, but at the very positive advantages of having 
religious freedom.
    Wherever religious freedom has been implemented, countries, 
by and large, have benefited enormously from it. I would say 
that is probably going to be as true in China as it is in the 
United States and many other countries.
    Thank you.
    Mr. Wolf. Thanks very much, David.
    Mr. Kung.

 STATEMENT OF JOSEPH KUNG, PRESIDENT, CARDINAL KUNG FOUNDATION

    Mr. Kung. When I entered this country 47 years ago in 1955, 
China was a young Communist country. At that time, the 
Communists were already throwing the bishops, priests and their 
faithful into jail and labor camps.
    Forty-seven years later, China is still a Communist 
country. China is still throwing the religious believers into 
mainland labor camps by the thousands. Although China has 
changed by opening its door to the outside world, the 
persecution of religious believers has never stopped.
    This persecution has recently become so bad at a time when 
China is making significant economic progress, at a time when 
China has joined the World Trade Organization, and at a time 
when China professes fighting terror, while it continues to 
create its own terror among its own religious believers.
    Since late 1999, the Government of China has destroyed 
1,200 churches in one eastern province alone. An 82-year-old 
priest, Father YE Gongfeng was savagely tortured to 
unconsciousness and Father LIN Rengui was beaten so savagely 
that he vomited blood.
    Underground Catholic seminarian Wang Qing was tortured for 
3 days, being suspended by his wrists, beaten, and force fed 
with contaminated liquids that caused severe injury and 
illness.
    Catholic priest Hu Duo suffered broken legs in police 
beatings. Even a 12-year-old could not escape the brutality. 
She told the interrogators that she had become a liturgy 
lector. As a result, she was beaten so savagely that she had to 
be hospitalized.
    There is a tiny village called Donglu in Hebei. In that 
village, there is a shrine for the Blessed Mother. Each year, 
tens of thousands of pilgrims visited this shrine from all over 
China.
    However, in May 1996, 5,000 Chinese soldiers, supported by 
dozens of armed cars and helicopters, destroyed and leveled 
that shrine. The government confiscated the statute of the 
Blessed Virgin Mary and arrested many bishops and priests.
    Bishop Su Zhimin, the underground bishop of this shrine, 
was arrested at least five times in the past, and has already 
spent approximately 26 years in prison. He disappeared after he 
was last arrested in October 1997. We do not even know if he is 
dead or alive.
    The auxiliary bishop of this shrine, Bishop An Shuxin, was 
last arrested in May 1996. He has been in prison for the last 6 
years. We do not even know where he is. The pastor of this 
shrine, Father Cui Xingang, was also arrested 6 years ago in 
May 1996.
    There are approximately 50 bishops in the underground Roman 
Catholic Church. Almost every one of them, not just 33 of them 
mentioned by Paul Marshall and Mr. Aikman, is either arrested, 
under house arrest, under strict surveillance, in hiding, or on 
the run. None of them has freedom to go around.
    For instance, Bishop Jia Zhiguo, Bishop of Zhengding in 
Hebei, was just arrested 5 days ago. We do not know where he 
is. I had a press release, yesterday, come out. Obviously, 
there is severe, ongoing persecution of the underground Roman 
Catholic Church in China at this time.
    The Communists took over China in 1949. After 7 years of 
severe persecution, the Communists failed to stamp out the 
Catholic Church. So, in 1957, the Chinese Communist Government 
created its own church called the Chinese Catholic Patriotic 
Association, in order to replace the Roman Catholic Church in 
China and to have complete control of the church.
    Although this Patriotic Association's Church calls itself 
``Catholic,'' it does not take its mandate from the Pope. It 
takes orders only from the Chinese Government. It is under the 
sanction of the Chinese Government, therefore, it is not 
persecuted.
    To this day, the Patriotic Association continues to openly 
advocate independence from the Pope. Our Pope has refused to 
recognize this Patriotic Association, otherwise called the 
``Official Church.''
    In contrast, underground Roman Catholics have no public 
churches in China because they are illegal there. A Holy Mass, 
a prayer service, and even praying over the dying by Roman 
Catholics are considered illegal and subversive activities by 
the Chinese Government.
    Religious services for the Roman Catholic Church can only 
be secretly conducted in private homes or deserted fields. The 
Chinese Government deems these private gatherings of Roman 
Catholics as illegal, unauthorized, subversive, and punishable 
by exorbitant fines, detention, house arrests, jails, labor 
camps, or even death.
    Approximately 5 months ago, Chinese Government authorities 
arrested underground Bishop Lucas Li of Fengxiang and 18 
underground priests, and closed an underground monastery and 
two underground convents. The reason? The Patriotic Association 
was coming to town.
    The government is now forcing underground Roman Catholics 
to register with the Patriotic Association. Refusing to do so 
is now liable to sentencing to 3 years' labor camp.
    Being ordained as an underground Roman Catholic priest and 
conducting evangelization without permission from the Chinese 
Government are now also considered a crime punishable by 3 
years in the labor camps. This punishment is illustrated in a 
court paper dated April 13, 2001 and is attached at the back of 
my speech.
    Let me say a few words about Cardinal Kung. In fact, no 
description of the persecution of religious beliefs is complete 
without mentioning him, because he is the symbol of persecution 
in China.
    Cardinal Kung was the Bishop of Shanghai for 51 years, 
until he died 2 years ago on March 12. He was imprisoned for 
32\1/2\ years, mostly under solitary confinement, because he 
refused to renounce the Pope.
    Pope John Paul II secretly created Bishop Kung a Cardinal 
in 1979 while he was still in jail and proclaimed him publicly 
a Cardinal 12 years later in 1991 after he arrived in the 
United States. Cardinal Kung lived in the United States for 12 
years.
    When Cardinal Kung received his red hat in the Vatican, he 
received an unprecedented 7-minute standing ovation from 7,500 
people. When he died, the Pope called him ``this noble son of 
China and of the Church.''
    In an interview with the Chinese Press in New York on 
February 12, 1998, Mr. Ye Xiaowen, the director of the 
Religious Bureau of China, stated: ``Gong Pinmei, ``which is 
the Chinese name of Cardinal Kung, ``committed a serious crime 
by dividing the country and causing harm to its people.''
    One month later in March 1998, the Chinese Government 
confiscated the passport of this then 97-year-old Cardinal 
Kung, officially exiling him and making him stateless.
    Why is the Chinese Communist Government so fearful of this 
97-year old Cardinal that it had to confiscate his passport to 
prevent his return to China? Even after his death, Cardinal 
Kung was still persecuted and insulted by the Chinese 
Government.
    After the Cardinal's death, the Chinese Government issued a 
statement. It said, ``Gong Pinmei was a criminal of China found 
guilty by the Chinese court. Kung committed a serious crime of 
dividing the country and dividing the church. History will 
judge him for his crime.''
    I believe that history will indeed judge. However, history 
will judge that Cardinal Kung was not a criminal. History will 
also judge that those religious believers who have been 
persecuted by the Chinese Government are also not criminals.
    The criminals will be those who sent Cardinal Kung to life 
imprisonment. The criminals will be those who have been 
persecuting millions of Chinese religious believers who only 
want to practice their religion according to their conscience, 
not according to the choice of the government. The criminal 
will obviously be the Beijing Government.
    Thank you.
    [The prepared statement of Mr. Kung appears in the 
appendix.]
    Mr. Wolf. Thank you, Mr. Kung. I thank all of you.
    We will now go in the order that everybody has arrived.
    As economic reform takes effect in China and state-owned 
enterprises are disappearing, the social safety net that is 
inherent in them is also disappearing.
    Resources of the Chinese Government are limited, to say the 
least, to act as a substitute. We are seeing some of the impact 
of that on the front pages of our own newspapers, as they 
report on the increasing labor unrest in China.
    I note, in this book about the official Catholic Church in 
Shanghai today, a few of their activities. There is a home for 
the elderly; there is a school that trains disabled individuals 
in computers; and there is a home for senior citizens.
    Is there any indication that there are elements in the 
Chinese Government who recognize that religious groups are able 
to provide for many of the social services that are so 
necessary as one aspect of civil society? Do you see any debate 
going on within the Chinese Government about this practical use 
of religious organizations?
    Maybe, David, you could start out. I would be happy to hear 
from anyone.
    Mr. Aikman. Yes. Sure. There certainly is a recognition of 
the role of charitable organizations. The official Protestant 
church in China, for some years, has had a charitable 
organization called the Amity Foundation, which has done 
similar kinds of things.
    So even at an official level, there has been an 
appreciation of the fact that religious groups can perform 
social welfare functions that the State either cannot afford to 
fulfill, or does not wish to fulfill.
    It is also clear that, at fairly high levels in the Chinese 
Government, there is an appreciation that this is actually a 
good thing. Christians privately, these actually non-official 
Christians, contributed huge amounts of money after the 
disastrous floods in China in 1999, I think it was.
    But it is a two-edged sword for the Chinese Government. If 
you start permitting private charitable groups to operate, 
where do you draw the line?
    The Chinese Communist Party, I am sure, every night goes to 
bed thinking about a famous quotation from Vladimir Lenin, who 
said, ``Trust is good, but control is better.'' No Communist 
Party in history has ever been willing to allow social groups 
to arise that would challenge its claim to be the legitimate 
interpreter of history's currents.
    That is as true of the Communist Party today in China, 
which seems at one level to have embraced capitalism, as it has 
been true, for example, in places like North Korea, which is 
far more Stalinist in its interpretation of how Communism 
operates.
    Mr. Wolf. Paul.
    Mr. Marshall. With registered churches, Protestant and 
Catholic, there is the possibility of social work, even youth 
camps, things of this kind, but it is restricted to them. So, I 
am not sure there is too much arguing debate about that, 
except, how far can it go?
    In terms of debates within the Chinese Government, there 
are indications that there are debates about the crackdown on 
religions. Why is so much effort being put into repressing 
groups and people who are fully peaceful and, in most other 
respects, model citizens? I think Deng Xiaoping once remarked 
that Chinese Christians make very good Communists because they 
tended to work hard and be honest.
    So, there are questions that, particularly on entry into 
the World Trade Organization, with worker unrest and things of 
this kind, why are we putting so much energy into repressing 
groups who are either doing breathing exercises in parks or 
getting together to sing hymns in houses? There are more 
important problems facing China. So, that debate does occur. 
There are questions about this type of crackdown.
    Mr. Wolf. Mr. Kung.
    Mr. Kung. I believe that the book you are reading is 
published by the Patriotic Association Church. And as the 
Patriotic Association Church is under the sanction of the 
Chinese Government, they can do whatever they want to do, as 
long as it is in line with the policy of the Chinese 
Government.
    Unfortunately, the underground church is not allowed to do 
anything. They are not allowed to be worshipping, they are not 
allowed to do any pastoral work openly. Everything is under 
secret arrangement. Even with that, the underground church 
itself has charity work.
    For instance, the bishop who was arrested 5 days ago, he 
operates an orphanage, taking care of 100 handicapped children, 
starting from babies to early teens. There is great stress of 
having to play games with the Chinese Communists, they know 
that this is an orphanage. It is sort of a ``one eye open, one 
eye closed'' approach.
    Mr. Wolf. OK. Thank you.
    Next is John Foarde who is Deputy Staff Director.
    Mr. Foarde. First of all, I would like to thank all four of 
our panelists today for your very clear, very eloquent, and 
very disturbing testimony.
    Ira, I think I am going to reserve my questions until the 
end of our session, because we have a number of colleagues here 
that will want to ask questions of our panelists.
    Mr. Wolf. All right. Sharon Payt, with Senator Brownback.
    Ms. Payt. Thank you, Ira. Also, thank you, panel, for your 
excellent testimony.
    As you know, Senator Brownback is deeply committed to 
religious liberty issues in China. The last thing he commented 
to me before he left for the break, was to solicit advice on 
long-term solutions for challenging religious persecution in 
China, and that is my request to you.
    But before you start on that, and I know this is a rather 
large order, I would like to make a few observations.
    First of all, we are also very concerned about Pastor 
Dengsheng Gong, and whether or not he is going to be executed 
in the dark, in a corner, when no one is looking and when the 
phone calls have stopped. This is our concern. Could you also 
address that? These are my two primary questions.
    One observation. The first time I went to China, I met with 
the underground house church leaders. It was an incredible 
experience. In my last 10 years of doing work in religious 
persecution advocacy internationally, I have never met such a 
self-sacrificial group, more humble, more committed than these 
underground religious communities in China.
    They are really extraordinary people. I think they are hero 
of hero types, and they deserve every bit of advocacy we can 
give them. Of course, Senator Brownback is deeply committed to 
free trade, but we also believe that this poses both an 
opportunity and a responsibility to challenge the persecution 
practices in China.
    One of the people that I met there, just finishing here 
quickly--actually, two. There was a man and a woman. They were 
both evangelists. They were itinerant evangelists in a non-
denominational Christian church.
    They had come from the north, I was in the south, so that 
they could shake the police, the Public Security Bureau. We 
were meeting underneath a tree, hidden somewhere in a park, way 
in the corner.
    I asked what their life was like. They said, well, they 
were separate, even though they had been married. They came 
down together, but they lived separate lives. They lived on the 
road. They could not have a home.
    He could not go back to see his mother. His mother was 
dying. He had not seen her in several years, because if he went 
back the Public Security Bureau would have picked him up. They 
knew that he was concerned about his mother.
    They would always live on the run. They would never be able 
to settle down. They could never stay longer than 1 week in a 
given village, because then the Communist committees would find 
out and turn them in. This is their life. This is how they 
anticipated they would die, too. This is the new underground 
church.
    I just wanted to salute them, because I am leaving the 
Senator's office, after a short 5 years of advocacy, and I 
wanted to thank you all for your amazing help.
    And if you could answer the questions.
    Mr. Aikman. Thank you, Sharon. Let me take the opportunity 
of thanking Sharon Payt for her extraordinary work on behalf of 
Christian believers, and other believers, undergoing 
persecution in many different parts of the world in her 
capacity as legislative aide to Senator Brownback.
    I fully commend you for that and support your eloquent 
description of unregistered church leaders in China. It is, in 
a way, from a Christian point of view, like encountering people 
living out the book of Acts, the combination of, if you would 
like, divine leading, persecution, witnessing, miraculous 
events. It is an amazing phenomenon.
    I believe in a polyphonic approach to China. There is 
nothing wrong with a sledgehammer, but there is also nothing 
wrong with a rapier, either. There is nothing wrong with a 
feather duster, if the feather duster sometimes works in 
certain circumstances as effectively as a sledgehammer or a 
rapier.
    By polyphonic, I mean it is revealing that many of the 
senior house church leaders, at least the Protestant ones, and 
I am sure this is probably true in the Catholic case, too, 
supported American approval of China's entry into the World 
Trade Organization because they argued that the more open or 
the more accessible China as a society was, the less problems 
they ran into from the local authorities. I would say that that 
is probably an accurate judgment, from their perspective.
    But polyphonic involves, at times, speaking very loudly, 
sometimes speaking rather rudely. Rudeness is sometimes an 
effective way of getting a person's attention.
    It certainly means the formulation of policies that would 
be encouraging to any Chinese organization not only to foreign 
corporations that are sympathetic to the practice of religious 
freedom, but also to Chinese Government agencies.
    I think we should encourage corporations to invest in 
provinces that have better records of religious freedom than 
nearby provinces that do not. Thank you.
    Mr. Marshall. Just on Pastor Gong, his case is a very 
important one, for a few reasons. One, obviously, he is still 
under a death sentence, though the implementation of that has 
been delayed. Whereas, members of other religious groups have 
been executed, the use of the death sentence against Christian 
groups is highly unusual. In the 1990's, that did not happen, 
except for possibly one case.
    So, it would be a major repressive step if the Chinese 
Government then began to do that. So, for that reason, this is 
a particular case which the U.S. Government should keep 
raising. Otherwise, if he disappears from our sight, he may 
disappear from everybody's sight.
    Ms. Payt. How do we ensure or how do we monitor that 
effectively, making sure that he does not get executed some 
night when no one is looking.
    Mr. Marshall. By continually raising the question and, I 
think, asking to see him. The Chinese Government does not like 
that. But keep raising the question. We would like to visit 
him, and other people, too.
    Ms. Payt. Thank you.
    Mr. Wolf. I think Sharon's question about long-term 
recommendations for the U.S. Government is very important and 
of interest to all of us, so I hope you will weave it into some 
of the answers as we go along.
    Next is Teresa McNeil representing Assistant Secretary 
Kelly.
    Ms. McNeil. A question for Mr. Quigley. You mentioned that 
the bishop in Hong Kong had noted that control seemed to be 
showing signs of wear, and the Patriotic Church seems to be, 
perhaps, losing a bit of control. How would you account for 
that trend?
    Mr. Quigley. Well, it really receives almost no heartfelt 
support from the members within it. That is, the people in the 
registered church are not happy with the CCPA. It is a 
controlling agency.
    The Bishops of the open church do consider themselves to be 
authentic bishops of the Catholic Church. They pray for the 
Pope regularly. They recognize they cannot be in visible union 
with him, although at least three-quarters, if not more of 
them, have in fact been quietly reconciled with the Holy See.
    But one of the reasons the Patriotic Association fears the 
restoration of diplomatic relations between the Holy See and 
China, is that the Patriotic Association will become 
meaningless. It will be absolutely unnecessary if there is a 
way in which the universal Catholic Church can deal with the 
church in China.
    So it is, in some ways, some would say, on its last legs. 
It is still going to be fighting. The ordination of the bishops 
at Epiphany 2 years ago was an example of that, a very ill-
timed and kind of an aggressive way of rejecting the Vatican in 
a public way.
    But the majority of the bishops are not of that mind. Once 
the situation loosens, once there is the possibility of a 
diplomatic presence, or at least a representative of the 
Vatican in Beijing, then I think you will see a more rapid 
weakening of the influence of the Patriotic Association.
    I do not know if that is true with the Three Self Movement. 
I do not know how threatened it is by other forces within China 
or whether it is content to continue with the relationship it 
presently has.
    Ms. McNeil. Thank you.
    A question for Mr. Aikman. You talked a lot about regional 
differences, places where the authorities are either better 
able or more inclined to crack down. He also talked about how 
one of your recommendations might be that people are encouraged 
to invest in areas where there is less of a crackdown, there is 
more freedom.
    Could you talk a little bit more about that? Do the areas 
where the authorities seem less able or inclined to crack down 
correspond with those areas of China that have been prospering 
in the last couple of decades?
    Mr. Aikman. It varies. For example, Roman Catholics are 
very numerous in Hebei Province. That, of course, has been 
where the worst crackdowns seem to have taken place.
    The Protestant house churches, the unregistered 
Protestants, have been strongest, as I have mentioned, in 
Hunan, which has not, by and large, been the focus of extensive 
foreign investment.
    But if you go down to Fujian Province opposite Taiwan, for 
example, you have a huge amount of foreign trade and foreign 
investment, much of it by the Taiwan Chinese, by overseas 
Chinese, and all kinds of strange loopholes where you actually 
have Christian schools that are not part of the Three Self 
association. Protestant Christian schools are legally 
operating.
    Now, whether or not Beijing knows, or Mr. Ye Shaowen of the 
Religious Affairs Bureau, I do not know. I hope they do not 
tell him.
    So it is very strange. I would advocate something close to 
the equivalent of what the Sullivan rules were for American 
corporations doing business in South Africa during the 
apartheid regime, where you basically--and you have to do this 
by a combination of legal measures, perhaps government 
regulation, I am not sure what--but more often moral pressure 
within the corporation by shareholders saying, we do not want 
you to invest our company's capital in such and such a place 
because this is what has happened in that county of China in 
terms of religious believers and curtailment of belief or 
persecution.
    On the other hand, we know that such and such a province 
has done a pretty good job, by and large. We encourage you to 
go there. Chinese provincial leaders are nothing if not 
extremely pragmatic.
    I do not think it would take too much of this to begin to 
see the opening up at the provincial level of opportunities of 
religious freedom that did not previously exist because of a 
very subtle form of economic pressure.
    Mr. Wolf. Next is Mike Castellano with Congressman Levin.
    Mr. Castellano. The first question is directed at Mr. 
Quigley. You discussed efforts by the Holy See to increase its 
presence, whether officially or unofficially, in China. I am 
just wondering if you sought U.S. Government assistance in that 
effort, and if so, how would you characterize that assistance?
    Mr. Quigley. That is a very delicate question. In fact, 
President Bush, as I mentioned in the testimony, did raise the 
issue and urged President Jiang to open dialog with the 
Vatican. There is a dialog of sorts. There have been some 
conversations, basically fruitless so far.
    We, in our bishops conference, have encouraged the U.S. 
Government. We wrote to President Bush before both of those 
visits urging him to raise these kinds of questions.
    On the other hand, I think we have to recognize that there 
is a potential down side to that, that if the Chinese 
authorities believe that, in fact, by opening up a dialog with 
the Vatican, they are being pressured by the United States 
Government, they may see this as less a religious issue and see 
it more in its political terms. It has its political aspect, 
obviously.
    But we do encourage the quiet diplomacy of the United 
States in trying to present reasons why, as I mentioned in the 
testimony, it might be more in the interests of the Chinese to 
open up some kind of dialog with the Vatican, to allow for 
interpretation of what is going on within the church in China 
to be made by such a representative.
    I think it is fair to say that the Chinese authorities, 
with their history of misrepresenting to a certain extent the 
history of Christianity in China in the past and not being, 
except for a few persons, well-versed on what is this thing, 
the Catholic church, the Protestant churches, and so on, and 
religion in general, that they are in need of a certain amount 
of education in the sense of learning more about what these 
groups represent.
    So it will be to their advantage to have a more open 
relationship with somebody from the Catholic Church outside of 
the Chinese context. That is, someone from the Vatican.
    Mr. Castellano. Thank you.
    This is for any of you all, picking up on Sharon's 
questions. We often hear about rule of law versus rule by law. 
It seems like China does a pretty good job on the rule by law 
side of the equation.
    I am just wondering if there are any particular laws that 
are used that you think, the repeal of which, might assist the 
freedom of religion in China.
    Mr. Marshall. I think, especially as mentioned before, the 
1999 cult law. There was repression of unregistered groups 
before that, but the laws governing that were milder in 
American terms.
    Part of the testimony which I did not read says it was sort 
of like a misdemeanor, where you could get a couple of years in 
prison. Now, it becomes a national security issue.
    So laws of 1999 are a particular problem in ratcheting up 
the level of penalties against those groups designated as 
cults. Just to add, I do not believe you should designate any 
groups a cult, even if you find their views weird. But many of 
the groups which are designated as cults in China would be 
mainstream religious groups in the United States.
    Mr. Wolf. Thanks. Bob Shepard with the Department of Labor.
    Mr. Shepard. Dr. Marshall, you noted in your conclusion 
that the United States Government should ensure that United 
States companies doing business in China do not engage in 
practices that would facilitate violations of religious 
freedom.
    Without getting into specific companies, has that been a 
policy of the Chinese Government in any way to lean on 
companies or employees of companies?
    Mr. Marshall. I am not sure there is a specific policy that 
stated, we will do this. But any person in China, and any 
company operating there, the Chinese Government would want it 
to report, would require it to report, any activities it sees 
which the Chinese Government says are illegal.
    So, that would be an expectation of the Chinese Government. 
I know of no particular instances that have been publicized 
where that has been the case, but this would be an ongoing 
expectation. If it is, in fact, happening, I would like to make 
sure it does not happen and make this a stated policy.
    As with the World Trade Organization, we expect this amount 
of activity to increase. There have been cases. There is one 
case, and I would need to go back and get the details, where 
someone was fired by a United States company for religious 
activities which the Chinese Government said were illegal. This 
is apart from any charges or whatever, it was simply a 
government determination about this person, so the company let 
them go.
    Mr. Shepard. This is for any of you. It appears, based on 
the absence of any mention in any of your statements, that the 
expatriate communities in China seem to be more or less exempt 
from the treatment given to Chinese who are followers of 
religions. Is that true? I did not hear any mention of it.
    Mr. Aikman. A friend of mine was the Consul General of a 
major western power, not the United States, in Shanghai in 
charge, as an organizer, of a group of international people 
living in Shanghai who had a worship service in a hotel which 
they had conducted for several months with no problem at all, 
with full permission from the hotel. The authorities knew about 
it.
    All of a sudden, I think this was probably in the year 
2000, one December day the police came in and said, this church 
service has to stop now. Now, this was foreigners.
    To my knowledge, there were not any Chinese present. But 
for some reason, somebody had gotten offended by what was going 
on. It was demonstrating too much independence of religious 
activity. They were ordered to stop, and it was not resumed.
    Mr. Kung. I want to add something. There are at least more 
than 1,000 foreign priests in China teaching English, and they 
are not doing any pastoral work, anything like that. They are 
not even allowed to show their collars. If any one of those 
people starts evangelizing people, if they are found out, they 
will be kicked out so fast, before you know it.
    Mr. Shepard. One final question. Are there other countries 
that have put religious freedom high on their agendas to the 
extent that the United States has that you work with, or whose 
representatives you deal with?
    Mr. Marshall. I do not know any country which has put as 
great as stress as the United States, or who has passed 
legislation in this regard. Countries such as the Netherlands 
and Ireland--this is often a thing they raise in international 
forums, so there is particular commitment there. But generally, 
it is the United States, which is far stronger.
    I would just add one thing. This is not on religious 
freedom, per se, but on human rights in general. The French now 
have an ambassador for human rights. I was talking with him 
last month. He said, we do not like to say this, but we are 
adopting the American model and we have looked at it and think 
that it is fairly good. So, the United States, on this, is not 
out of line, but out front.
    Mr. Kung. I think the Vatican places freedom of religion at 
the top of its agenda.
    Mr. Aikman. If I could just comment on the problem of 
certain countries. Unfortunately, part of the Chinese 
implementation of the cult law was based upon advice by 
European parliamentarians who have indeed conducted a crackdown 
on what they consider non-mainstream religious activity in 
Europe.
    So sometimes the Chinese officials explain to foreigners 
who complain about their cults, well, listen, the French say it 
is all right, the Belgians say it is all right. So, if these 
modern Western countries do not like cults either, why are you 
complaining that we are doing the same thing?
    Mr. Quigley. Let me just add, I agree with all of the 
previous. I think it is worth noting that the salience of 
religious freedom, as an issue within the human rights 
community, is growing all the time.
    When the major human rights organizations like Amnesty and 
Human Rights Watch, and so on, were founded, they paid almost 
no attention to religious freedom. That was not an issue. It 
was not on the table at all.
    Partly because of the work of Paul Marshall's group and 
others, that has now become much more accepted and is, in fact, 
growing. So, I think other European countries, including the 
French, who in their cult laws decided they wanted to think of 
the Jesuits, perhaps, as a cult----
    Mr. Aikman. Baptists.
    Mr. Quigley. And Baptists, and others, and the Russians 
have done very much the same thing, with simply 
misunderstanding or not understanding the nature of various 
kinds of groupings. But clearly, human rights and religious 
freedom issues have taken a major leap forward in the United 
States, as Paul said, much more than anybody else. But I think 
the rest will come along.
    Mr. Wolf. I think that is an interesting comment. You can 
make the same argument on labor rights--that if you go back 5 
to 10 years, it was not a significant theme in the human rights 
community, much to the chagrin of the labor movement in the 
United States. Now it is front and center with other human 
rights issues.
    Next is Karin Finkler with Congressman Pitts.
    Ms. Finkler. Thank you all for your testimony.
    Two questions. First, is how effective is it to ask to go 
visit prisoners? We have tried to do that before with little or 
no luck, so I would appreciate your comments on that.
    Also, in terms of your observations of China over the past 
however many years, with what you see right now, what would you 
surmise is going to be the trend in the next 5 to 10 years in 
light of the current actions of the Chinese Government?
    David, go ahead.
    Mr. Aikman. I will start off. I am sure I am not alone in 
responding to this. I would say, keep knocking on the door all 
the time. Keep sending postcards and letters. If you send a 
postcard protesting the government policy of a Communist Party 
state, they are so bureaucratic, that somebody has to make a 
note of who it came from and what it said, and it infuriates 
them. There is nothing like infuriating a bureaucrat for 
changing or opening the door just a little bit. So, keep 
knocking, keep asking. Eventually, they will let you in.
    The future of China? Boy, people have lost their careers by 
responding to that question. But China is very conscious that 
it is in the world spotlight in the years leading up to the 
Olympic Games in 2008. I personally very much supported that 
decision, for all kinds of reasons I will not go into now.
    There is a big anniversary coming up. The year 2007 is the 
200th anniversary of the first Protestant missionary, Robert 
Morrison, in China. The Chinese unregistered house churches 
very much want to honor that occasion. So, we are going to see 
all kinds of things happening.
    There is some very interesting cooperation now between 
unregistered house church leaders and people at middle levels 
of the Three Self Patriotic Church, that is, the official 
Protestant church, which is not authorized by the head of the 
Religious Affairs Bureau, much less by the Communist Party.
    I think this shows a moving together of the Three Self 
clergy who support unfettered religious activity, and the house 
church leaders themselves who obviously seek to move in that 
direction.
    Mr. Marshall. Again, on requests to see prisoners, if they 
keep saying no, that means somewhere else they are going to 
have to say yes. If you just have a no, no, no, you are 
annoying somebody. So, that pressure will show at some point.
    I will talk about not what the future is, but what some of 
the trends are now. I mean, in the last year or two you are 
seeing fewer controls on the registered churches. Their 
possibilities are opening up more, using a carrot to try and 
get the unregistered to join them. Then there is more 
repression of the unregistered, particularly those described as 
cults.
    The other trend is also, as David mentioned before, this is 
uneven across the country. The Chinese Government has said, 
when bad things happen it is just local officials doing bad 
things. That is not the case. This is centrally directed and 
organized, but the locals often ignore it.
    It is the fact that local officials do not go with the 
national campaign. There are areas, particularly in the coastal 
zones and in the south, where unregistered underground activity 
is, in some places, not cracked down on.
    So you are seeing quite a few different lines going on at 
the same time. I think this indicates tensions and differences 
within the leadership dealing with religion. So, I think the 
real possibility is there to sort of help wean the Chinese 
Government away from arresting people who are engaged in 
peaceful activity and divert resources to the many real 
problems they face.
    Mr. Wolf. Thanks. Mr. Kung.
    Mr. Kung. Very quickly. I think we are talking about 
knocking on the door and sending postcards. They are all 
important. But I think one of the very important ingredients we 
did not mention, is we are all religious believers right here 
and we really have to pray. Pray very hard for this.
    Mr. Wolf. Thank you.
    Holly Vineyard with the Commerce Department.
    Ms. Vineyard. Thank you all for coming in today.
    I am wondering if you could comment on, if you have seen 
any changes in Hong Kong since 1997 since the hand-over.
    Mr. Aikman. As a former pessimist about the future of Hong 
Kong under its new status as a special autonomous region, I 
have to admit, some of my worst fears have not been borne out 
at all. I think Hong Kong has done surprisingly well in terms 
of, by and large, most details of daily life have not come 
under the kind of control that we might have expected, or I 
certainly feared might be the case.
    There are some problems with Hong Kong relating to the rule 
of law and the fact that the Hong Kong Government has basically 
decided to use the National People's Congress, in effect, as 
its ultimate supreme court, ignoring the Hong Kong 
constitutional provisions of its own supreme court with common 
law justices brought in from other common law jurisdictions. 
But I have been pleasantly surprised by the fact that Hong Kong 
has done quite well.
    Mr. Quigley. I usually take the more optimistic view. But 
on this one instance, in terms of Hong Kong, I just recently 
read interviews with both Bishop Tong, who is the auxiliary 
bishop of Hong Kong, and Bishop Zen, who is the coadjutor 
archbishop who will succeed when Cardinal Wu steps down. They 
each have commented that pressures are building in terms of 
turning over schools and other institutions of the church in 
Hong Kong.
    Hong Kong is an area where there is a great deal of 
institutional presence of the Catholic and Protestant churches, 
and they are coming under some, not immediate, but foreseeable 
pressure to either give up their schools or get out of certain 
kinds of activities.
    Mr. Kung. One particular incident, along the lines of what 
Mr. Quigley is talking about, is about the right to live in 
Hong Kong for those immigrants to Hong Kong. As the Hong Kong 
Government says, if those children come to Hong Kong, no school 
will accept them.
    Then the coadjutor bishop, Bishop Joseph Zen, told the 
government, if you do not accept them, the Catholic school has 
places for them. We will open a school and accept every one of 
them. This creates some sort of a reality to the Chinese 
Communists of how powerful the Catholic educational structure 
is in Hong Kong, because of the built-in educational system by 
the religious schools.
    Mr. Wolf. Thank you.
    Geoff Gleason, with Congressman Frank Wolf.
    Mr. Gleason. Thank you very, very much for being here this 
afternoon. I have a question related to today's editorial in 
the Washington Post that you probably saw, ``Europe and Human 
Rights,'' if I can read this.

    As the 6-week session got under way at the Human Rights 
session last week, none of the commission's 53 members was 
prepared to raise the subject of China, even though Beijing's 
record of political and religious oppression has grown only 
worse in the past year.

    Fifty-three countries.
    The editorial ends up, ``Now European Governments have 6 
weeks to show what their values are.'' But it just strikes me 
that there are 53 countries. What types of economic and other 
forms of intimidation are used? If each of you could comment on 
that, and maybe comment on this editorial.
    Mr. Quigley. I do not think I can make any useful comment 
on it. Precisely why are these countries today so reluctant to 
address the issue of China? It has been on the agenda for the 
U.N. for quite some time, the Human Rights Commission.
    So, I cannot account for what has happened right now in 
terms of these countries that are reluctant to step forward on 
this issue. It has been similar with some other countries. The 
United States has, as was said earlier, taken the lead in 
raising human rights issues in the Geneva meetings. But I am 
simply at a loss to know why they are so isolated in this 
issue.
    Mr. Aikman. I alluded earlier to what I consider a 
disturbing trend in European jurisprudence to narrowly define 
certain religious activities as cults. The French law basically 
left it open for the courts to decide whether a religious group 
could be held in contravention of anti-cult law by saying to a 
person, you are a sinner, because that imposes emotional stress 
upon a person, etc. You know all the arguments.
    So, I think within Europe there has been a trend against 
the notion of religious freedom, or to put it in more specific 
terms, freedom of conscience that we in the United States have 
wholeheartedly embraced from generation to generation and still 
define as one of the core principles of liberty under the law 
within these United States.
    Within Europe, you do not have that heartfelt tradition of 
celebrating religious freedom, freedom of conscience, that we 
have enjoyed in this country. I think it is exhibited in cases, 
like the reluctance of European legislators to bring this up.
    In fact, somebody told me today that the European 
parliament had passed a law yesterday--I did not see this--
which was very restrictive of certain rights of religious 
believers.
    Mr. Marshall. Obviously, the answer is very complex in 
terms of countries' behavior. But one point needs to be borne 
in mind. The United States is much larger than any of these 
countries, so in many situations the United States, vis-a-vis 
China, in talking about economics, we have the clout to do 
various things that almost no other country does.
    So, in terms of Germany dealing with China, they would say, 
there is no act that Germany itself could take which would have 
that much effect on China. So, it needs to be coordinated. And 
that is extremely difficult. To do it within one country is 
hard enough, to coordinate others is very difficult.
    So, lack of American presence and leadership is important, 
simply because the United States is bigger. People say, why 
does America throw its weight around? Well, it has weight. 
Everybody throws their weight around if they have got it. It is 
a question of whether you have it or not.
    Mr. Wolf. Thanks.
    John Foarde.
    Mr. Foarde. As I suspected when I reserved my questions, 
virtually all of the ones that I had jotted down during your 
testimony were posed by my colleagues here.
    But there is one that I am interested in that is not 
necessarily on the same direct topic as the questions you have 
just answered. This is really for Mr. Marshall and Mr. Aikman.
    Are there any continuities between the Protestant and 
evangelical groups that were seen in China before 1949 and the 
ones that are becoming more and more active today in China? For 
example, the Jesus Family, the Children of God, the Shouters. I 
take it there are a number of other ones. Anything that you 
could say to help us put this in an historical perspective 
would be really useful.
    Mr. Aikman. Very definite continuity. All of the largest 
networks of Protestant unregistered Christians, the so-called 
house churches, can trace a lineage back to either a 
missionary, a Western missionary who was in a certain part of 
China, or to an indigenous Chinese church that operated before 
the Communists came to power in 1949.
    One of the reasons for the rapid expansion of Christianity 
after 1979, was that the relaxation policy of Deng Xiaoping 
freed from prison literally thousands of Roman Catholic and 
Protestant clergy, who returned to their communities and took 
up where they had been active earlier as leaders of church 
groups. So, there is a definite continuity.
    Finally, one of the most remarkable things about China in 
the Protestant church is the concept of ``Back to Jerusalem.'' 
Chinese unregistered house church Christians believe their 
providential calling is to take the gospel back to where it 
started, Jerusalem.
    Well, if you look at the map, you are basically looking at 
parts of the world which missiologists sometimes refer to as 
the 10/40 window, which have been traditionally and 
historically extremely hostile to the gospel.
    But that movement, the Back to Jerusalem movement, was 
specifically founded in the 1940's by indigenous Chinese 
Protestant missionary sending agents in part of China.
    Mr. Marshall. I have just three things. As David said, most 
of these groups trace their roots back before 1950. Second, 
when the Chinese Government says there are strange groups, 
there are strange beliefs, there are radical groups around, 
there are. One reason for this, of course, is these people are 
forbidden to have trained clergy. They cannot study and go to 
seminaries.
    I am not sure the government should be saying what is 
orthodox. But if you do want more orthodox Christian views, why 
do you not let them have trained clergy, and read, and have 
access to books? You are creating the problem of weird beliefs, 
you, the government.
    A third thing. I am not sure if it is of immediate 
political relevance, but given the sense of history, it is 
important in China. It also needs to be said that, as far as we 
know, the earliest Christians coming to China were Iranian. 
They were Nestorians, perhaps in the sixth or seventh century, 
maybe before, but at least they had put down roots and 
buildings at that point.
    So, I think that is important to mention, particularly when 
Christianity is called recent or foreign. Obviously, it is 
foreign everywhere except Israel and Palestine. But this is 
nothing which comes recently to China. It is over 1,000 years 
older than Communism in China, for example.
    Mr. Wolf. Thanks. We have moved so fast, it is not even 4 
o'clock. So I would like to go around one more time. But we are 
going to do it really efficiently.
    So, 3 minutes instead of 5. A quick question and a little 
less historical depth, which is incredibly valuable, but some 
quick answers.
    I will go first. Is there a difference in the depth of 
belief held by members of official churches, either on the 
Protestant or the Catholic side, versus the members of the 
unofficial churches in China? Joseph.
    Mr. Kung. Yes, there is. As far as the Catholic church is 
concerned, for instance, there is an underground church that 
not only is loyal to the Holy Father, not only do they love the 
Holy Father, but they also recognize the Holy Father, the Pope, 
is the head of the Universal church. This means they recognize 
the administrative, judicial, and legislative authority of the 
Pope.
    The Patriotic Association, even though they also say they 
are loyal to the Pope, they also say they have love for the 
Pope, they also say prayers for the Pope, but nevertheless, 
they do not recognize the universal administrative, 
legislative, and judicial authority of the Pope. That is the 
main difference between the underground church and the 
Patriotic Association.
    Mr. Quigley. I would just say, for one thing, we do not 
know a great deal about the internal beliefs and attitudes of 
members of either sector of the Catholic Church in China. There 
are very few good research studies made of attitudes.
    A second factor, is that the second Vatican Council 
occurred long after the Communist takeover, so none, or very 
little, of the church's changes and developments since the time 
of the second Vatican Council in the early 1960's have really 
impacted the Catholic Church in China. They have, to some 
extent. There is a degree of communication and contact, but it 
is not the way it would be under normal circumstances.
    So, we know little. The differences between them, I think 
we know still less. Joseph Kung is quite correct, in terms of 
the attitude taken toward ties with the Holy See.
    But I think the beliefs in the Sacraments, for example, and 
the basic teachings of the church, they would understand them 
from pre-Vatican II days, and probably do not differ very 
greatly.
    Mr. Wolf. David.
    Mr. Aikman. As far as the Protestants go, we actually do 
know quite a lot, both about the profession of faith of the 
unregistered house church Christians and the official doctrines 
approved by the Three Self Patriotic movement authorized by the 
Religious Affairs Bureau.
    In terms of official belief, there is no question that the 
Protestant house church movement is far more evangelical, 
explicitly and overtly so. Nevertheless, you do find some Three 
Self Patriotic movement pastors and large numbers of lay people 
who are very zealous in their faith, who are very evangelical, 
and who in fact often have contact, unofficially, of course, 
with the unregistered house church leaders.
    Mr. Wolf. Thanks.
    John.
    Mr. Foarde. No questions.
    Mr. Wolf. Sharon.
    Ms. Payt. I am going to be very brief, I promise you.
    What is the impetus, if any, among the different religious 
convictions, the Buddhists, the Christians, the Catholics, 
Protestants, Falun Gong, and other religious movements to come 
together to counter religious persecution?
    Mr. Marshall. As far as I know, say, between Buddhists, 
Muslims, Christians, and so on, I am not sure about much 
contact of that kind. Organizationally, it would just be very 
difficult to do, and I am not sure if there is any impetus to 
do that.
    The documents you are referring to seem very scared by the 
fact that different Protestant groups and Protestant and 
Catholic groups seem to be teaming up.
    Mr. Aikman. I am not aware of any interreligious 
cooperation, for example, as Paul suggested between, say, 
Buddhists, Muslims, and Christians. There is not that degree of 
security, I think, in one's own belief vis-a-vis an all-
powerful State for that thing to arise.
    I am sure, once you have got a measure of religious freedom 
as we understand it, that sort of thing would happen.
    Mr. Quigley. My sense is that the degree of Catholic/
Protestant ecumenism among the open church is very limited, 
indeed. It may exist. I think you are quite correct, that there 
is a degree of reaching out because of similarities of 
situation among the underground churches.
    What is also happening though in recent years, is there is 
a less tense relationship between the underground and the 
overground church within the Catholic Church, partly because 
the underground churches recognize that many people within the 
open church have been able to stand up to some degree to the 
government's edicts.
    In the ordination of half a dozen, or five, bishops on 
Epiphany 2 years ago, the government had tried to have 12 
bishops to match exactly the number that the Pope was ordaining 
that day, and many bishops and priests simply refused.
    Seminarians that were trucked out the day before to 
practice for the singing at the Mass refused to come. So, there 
is a degree of getting their back up a little bit in terms of 
being under the control of the CCPA.
    Mr. Marshall. Remember, also, that people in registered 
churches suffer major disabilities. As a religious believer, 
you cannot be in the Communist Party, which means you are 
barred from access to government jobs and other things of this 
kind. So, people who are members of registered groups usually 
have a real commitment and belief, otherwise, why set yourself 
up for a loss?
    Mr. Wolf. Bob Shepard.
    Mr. Shepard. Yes. The history of religious persecution is 
often about hatred at sort of the grassroots level, people 
trying to practice and people in the community seeing the 
religious groups or the worshipers as alien to their community.
    In China, it seems as if the case is that, from what has 
been described and what I have read previously, the persecution 
seems mostly the monopoly of the state. Is there a grassroots 
hostility? Is that a difficult problem? Are religious groups, 
religious people, treated with hostility or as aliens within 
their own communities?
    Mr. Aikman. There have been examples of hostility by local 
communities to the arrival of Christian groups, usually from 
people threatened because of access to worship is regarded as 
unacceptable, at least by most Protestant evangelical groups.
    But one of the interesting reason that I have heard from a 
number of sources for the rapid rise of evangelical Protestants 
in China, unregistered house churches in the 1980's and 1990's, 
was the fact that Communist Party wives had gone to Beijing to 
have illnesses fixed up medically, and the hospitals in Beijing 
were unable to cope with their illnesses. They would come back 
to their locality. This was particularly true in Hunan 
Province.
    Some dear old Bible lady would come and pray for them, and 
whatever you think about prayer and healing is neither here nor 
there, but very often these people would actually recover. 
Because they were so astounded, often you had house church 
groups meeting in the homes of Communist Party cadres.
    Sometimes the husband would then be refreshingly--I 
remember back in the 1980's, in Beijing, there was a newspaper 
article in the Beijing Daily complaining that too many 
Communist Party wives were being healed and, therefore, were 
sort of becoming advocates of Christianity at the grassroots.
    Mr. Wolf. Karin Finkler.
    Ms. Finkler. Anything you would like to express that you 
have not been able to express?
    Mr. Quigley. May I just say one thing on the last question? 
I have no evidence for this, but I put it out as a hypothesis. 
In terms of popular hostility toward religious groups, just on 
the part of people at the base, the Chinese have gone through 
the cultural revolution, they know what that created. With that 
as a memory, they may well, indeed, be more tolerant of 
differences and so on than they were a couple of decades ago.
    Mr. Kung. Some of you here may know Mr. Marc Thiessen, who 
was the righthand person of Senator Helms before. Recently, he 
wrote a splendid article in a magazine called Crisis Magazine. 
I have two copies right here.
    The title of the article he wrote is, ``A Tale of Two 
Bishops.'' He describes the difference between the underground 
church and the Patriotic Association. So, it is a very in-depth 
analysis or insight. If anybody is interested in reading it, I 
will leave it right here.
    Mr. Wolf. Thank you.
    Geoff Gleason.
    Mr. Gleason. When you look into the future, what do you see 
in the next 5 or 10 years? I have been working here on Capitol 
Hill since 1978 and have heard the argument thousands of times, 
that with greater economic prosperity we would see more 
personal freedoms. It has been going on and on.
    The current administration, the previous administration, 
the President's father's administration. Yet, I look in the 
Washington Post today and we again see Beijing's record of 
political and religious oppression has only grown worse, and 
they were just given PNTR. Now you mentioned the next 
generation. Maybe after the hardliners are appeased, what 
occurs? How much longer is it going to take to see some 
progress in this area?
    Mr. Quigley. This is a view that the two bishops in Hong 
Kong have expressed quite publicly, and I suspect many others 
in other ways, that there is a generational shift coming about 
in the Party.
    If that bodes well, if the change is indeed a positive one, 
that over a period of 3 or more years--it certainly is not 
going to be immediate--once the new leadership feels confident 
that they can, in fact, effect change, we may see that. I 
cannot imagine anything happening in the next 12 months, other 
than the election of new people.
    Mr. Marshall. Again, I do not want to attempt to predict 
the future. But the classic way of combining relatively open 
markets with authority on governments is fascism. You hold 
society together by using a very extreme form of nationalism as 
the glue. If you can whip that up, people will coordinate their 
activities voluntarily. You can be very popular. China already 
has some of those characteristics.
    What one might fear, is that those would become full-blown. 
So, one aspect of that, particularly in the subjects we are 
talking about now, is that xenophobia would become much worse.
    So, I am not saying that that is going to happen. That is a 
particular danger I see, and we need to be aware of that. 
Communism is still used, but functionally it does not explain 
much about it.
    I do not want to use the term too loosely, but I would 
worry about fascist directions in China. I mean, free markets 
coordinated in a national goal, held together by ideological 
nationalism.
    Mr. Wolf. We are going to keep going.
    My next question is on the issue of Bibles. The numbers 
that you read in the press of Bibles printed and available in 
China are enormous. I understand that the purchase of Bibles 
must be through organized churches. They are not for sale in 
public bookstores.
    Is there much leakage, so to speak? Are Bibles there 
available to underground church adherents? Can they get Bibles? 
And what are the other issues relating to availability of 
Bibles?
    David, why don't you start, then Mr. Kung.
    Mr. Aikman. Bibles are available in some parts of China 
through official churches and can be obtained quite easily. The 
difficulty, is distribution. Many counties of China do not have 
state-authorized churches, and therefore do not have a legal 
outlet.
    So, if there is a large Christian community there, where 
are they going to get their Bibles from? If they send a 
delegation to the nearest large town, chances are that their 
request for 20,000 Bibles might be met, if not with 
incredulity, certainly with a request for their names and 
addresses.
    So, the problem is in largeness of numbers. Bibles can be, 
and indeed are, legally printed in China. You can actually 
order 50,000 Bibles from the Amity Press, as long as you pay in 
dollars.
    The question is, if you rent a truck to carry that stuff, 
it is the people who rent the truck out who may report you to 
the Public Security Bureau for doing something that is 
technically quite legal.
    Mr. Kung. One more thing I want to say about it. Plenty of 
Bibles are available in China, but the problem is this. The 
Patriotic Association printed millions and millions of copies 
of Bibles. They alter the Bible where there are references 
about the authority of the Pope. They scrape it out. They alter 
it. They just scratch it out or scrape it out, with a space 
between, leaving a blank.
    In my house, I have two copies of the Bible. One is a 
genuine Chinese Bible, another one is a Bible from the 
Patriotic Association. Even somebody who does not speak 
Chinese, who speaks English, could see the difference because 
there are blank spaces there.
    Mr. Quigley. This is true in the case of the Catechism of 
the Catholic Church that was issued a few years ago, and the 
Chinese have allowed that to be printed so that you can now buy 
the Catechism of the Catholic Church in China. But there were 
several sections which were omitted, including those having to 
do with Communism.
    But, just as Joseph indicates, they did not bother to move 
the pages or the paragraphs together, so you see these blank 
spots. Therefore, everybody wants to know what was there, and 
they will find ways of finding out what was there.
    Mr. Wolf. Karin, did you have something?
    Ms. Finkler. Yes. My question is in follow-up to your 
statement, Mr. Quigley, that in 1 to 3 years there could be a 
change.
    What do you, and anybody else on the panel, see as positive 
things that the U.S. Government could do to encourage those who 
would make changes in the next few years?
    Mr. Quigley. Well, I think engagement is exactly the right 
thing. I do not think that by trying to isolate and not work 
with China is going to be of any value, with China, or with 
other countries with which we have great differences.
    So China's accession to the World Trade Organization, I 
think, basically is a positive thing, that they will have to 
live by the rules of the WTO, and that is going to be tested 
every step of the way.
    The question that was raised earlier about whether it is 
useful to have the U.S. Government really press on religious 
freedom issues is--on religious freedom issues, yes. The 
question came up specifically about the matter of the Vatican's 
relationship, and that is more delicate, where the U.S. 
Government should weigh in on that.
    But on human rights issues and religious freedom, I think 
we have all indicated that it is a role that organized states 
can play both indirectly by its policies toward human rights, 
and quite directly. The Ambassador in Beijing did raise the 
issue of Bishop Su. I think that can be done over, and over, 
and over again.
    Just on that point, in terms of engagement with China, I 
always tend to say, everybody believes in engagement with China 
because the alternative is to try to pretend it does not exist, 
or going to war, or something. It is a question of what form is 
the engagement.
    One of the things I would stress, is continually making 
this an irritant. Other things being equal, you do not like to 
irritate people. You like to get on well. But in this case, 
knowing this is an ongoing concern, I think it was important to 
the Chinese that they realized that it was very important to 
President Bush. It is important to America, but also to this 
particular guy who you are going to have to deal with for at 
least another 2\1/2\ years, or whatever.
    So the fact that this is always a problem, I think that 
this would strengthen those in China who, themselves, see the 
attempt to repress religion as being worse than useless.
    Ms. Payt. Are there any patterns or trends that you are 
noticing from the research you are doing right now on religion 
in China?
    Mr. Aikman. Well, I think the most interesting pattern, in 
a very broad sort of cultural context, is the possibility that 
certain aspects of Chinese culture may be significantly and 
permanently changed by the large number of Christians, both 
Catholic and Protestant.
    Just to illustrate this, the city of Wenzhou, which is a 
provincial capital of Zhejiang, is believed to have the largest 
percentage of Protestant believers in China, maybe as high as 
30 percent. I mean, you go there, you see churches everywhere, 
and most of them are unofficial. Wenzhou citizens are extremely 
diligent business people.
    So you have communities of Wenzhou Chinese Christians with 
churches in places like Moscow, Paris, Bucharest, Budapest, 
Barcelona, and Florence. You even have pastors to illegal 
Chinese immigrants in New York from Wenzhou.
    I think that, whatever you believe about Christianity or 
any other religion, you can put aside for the time being. I 
think one of the most fascinating historical questions is, is 
China going to make a leap from what I call the historical 
determinism of Marxism and Leninism and the sort of ethical 
determinism and the hierarchical determinism of the Confucian 
tradition, to be an open society with a concept of time as 
linear rather than circular--you know, the dynastic cycle, 
etc.--and if so, what would be the impact upon a China with a 
significantly changed culture if it became the major super 
power at the end of the 21st century? It is a very interesting 
historical question that is worth posing, even though we 
obviously do not have any definitive answers right now.
    Ms. Payt. Thank you.
    Mr. Wolf. All right.
    Please make any concluding statements.
    Mr. Quigley. No. I think you have actually exceeded your 
goal of ending by before 4:30, and I think you ought to rest on 
your laurels. I have no concluding comment to make. Thank you.
    Mr. Marshall. Just to reiterate a point I made a few times 
in terms of divisions within the Chinese leadership on the 
campaign against unregistered religions.
    As we said, the campaign is uneven across the country, so 
you have got conflicts between local, provincial, and central 
officials. Within the central government, many of these 
conflicts seem to be of the kind not so much that--there are 
people who say, this is inhumane, we should not be doing this. 
But probably more common, is saying that this is useless.
    Why are we doing this? We have got all of these businesses 
that are going to go bankrupt, we have got unemployment, we 
have got movement to the city, and we have got police forces 
and security officials going around chasing people for singing 
hymns in their living room.
    That sort of frustration, and that is a very pragmatic 
attitude, is something we should try and sort of encourage and 
appeal to in our dealing with China.
    Mr. Aikman. Nothing further.
    Mr. Kung. Three years ago, I think, the Holy Father made a 
speech, broadcasted directly to China. In that speech, there 
was one sentence that reminded the Chinese Government, all of 
these Catholics, even though they are underground, they love 
China. They are very patriotic.
    I think that is a very important point right now. I am 
afraid that the Chinese leadership has a mistaken idea that 
those Christians do not love China, and they are not patriotic. 
That is why the persecution is going on.
    Mr. Wolf. Well, thank you. We want to thank all four of you 
very much. This is a critically important issue, and you have 
all added a lot to our understanding.
    We will have a full transcript of this. We will have it 
posted on our Web site in about 5 weeks. Anything supplementary 
you want to put into the record is welcome. We will both 
publish it and post it on our Web site. It will be used as 
important input for the report that the Commission will make to 
the President and to the Congress in October. This will all go 
into that.
    So, all I can say is, thank you very, very much for a 
superb 2 hours.
    [Whereupon, at 4:21 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          PREPARED STATEMENTS

                              ----------                              


                Prepared Statement of Thomas E. Quigley

                             march 25, 2002
    Thank you for this opportunity to offer some brief comments on the 
issue of religious freedom today, especially with reference to the 
Catholic Church in the People's Republic of China. I'll confine my 
remarks to several recent developments in China that directly touch on 
the role of the Catholic Church there.
                           catholics in china
    First, some numbers. Out of well over a billion people, Chinese 
Catholics number roughly 12 million, with some four million of these in 
the open or registered Church, roughly eight million in the underground 
or unregistered Church. The government, of course, doesn't recognize 
the latter, so official figures have it that there are about 100 
million ``believers'' in the country--less than 1 percent, surely a 
gross undercount--of which 4 million, according to the government, are 
Catholic.
    The number of Catholics is small, and growing only at a very slow 
pace, but 12 million is still far larger than the roughly 3 million 
Catholics before the Communist take over. And as Dick Madsen, one of 
the best China church-watchers, likes to note, that's a lot more 
Catholics than there are in Ireland.
                        sino-american relations
     Let me frame these remarks by several fairly recent events. Last 
year, 2001, was significant in a couple of ways for the Church in 
China. Just over a year ago, in April, there was the Hainan Island 
collision and the downing of the US spy plane, which, coming on the 
heels of the Belgrade Embassy, plunged Sino-American relations very low 
indeed. But then the plane business was resolved. Secretary Powell went 
to Beijing in July, and President Bush planed his State visit to China 
for October, coinciding with the APEC meeting in Shanghai.
    Then came 9/11, which caused the State visit to be postponed, but 
the President still went ahead with a quick Asia trip in October, 
enabling him to meet briefly with Jiang in Shanghai, and then finally 
to have the postponed State visit just a month ago, in late February. 
These US-China visits have a bearing on the matter of religious freedom 
because in both his October and his February meetings with Jiang, Mr. 
Bush raised quite dramatically the issue of religion, including his own 
faith commitment, and pressed Jiang to grant religious liberty, to free 
Catholic clergy, especially bishops, who are under detention, and to 
pursue dialog with the Vatican, as well as with the Dalai Lama.
                        dialog with the holy see
    The question of encouraging China's dialog with the Holy See is 
something that both the Vatican and our bishops' conference have been 
urging on our government for some time. The essential goal of the 
dialog is the restoration of normal relations between the Holy See and 
the People's Republic, relations which the Chinese broke off when they 
expelled the Apostolic internuncio, Antonio Riberi, and arrested, 
imprisoned, and finally deported all the foreign clergy and religious 
in 1951.
    But the more immediate, practical goal of such talks, aimed at 
allowing a Vatican representative to reside in Beijing, whether or not 
full diplomatic relations are restored, is the opportunity for the 
Vatican to explain and interpret the sometimes complex reality of the 
Church to the Chinese authorities. Thus, when Bishop X is accused of 
breaking the law, simply because he declines to have his ministry 
governed and controlled by the CCPA--the Chinese Catholic Patriotic 
Association--the Papal representative could at least make the case that 
the bishop's arrest serves no valid purpose, that it can more likely 
lead to popular discontent than to dampen it, that it is in fact 
counter-productive to China's desire to be fully accepted into the 
world community which places high value on the free expression of 
religious belief, and so on. And thus by persistent, diplomatic 
pressure, changes in this behavior might eventually come about.
    The other effect of 9/11 was, of course, China's signing on in the 
war on terrorism, resulting in greatly improved US-PRC relations, 
evidenced clearly in the Bush State visit last month. The President 
there referred to the relationship as ``constructive and cooperative.''
                           the ricci symposia
    Now, a second set of events, these specifically of the Church, were 
the two Ricci meetings last October, one in Beijing (October 14-17) and 
one in Rome (October 23-25). They were to commemorate the 400th 
anniversary of the arrival in Beijing in 1601 of the great Jesuit 
scholar and missionary, Matteo Ricci. There was at the time a flurry of 
press speculation that these symposia would herald a major breakthrough 
in China's relations with the Church, even rumors that China was about 
to let the Holy See set up an apostolic delegation in Beijing. The 
speculation was totally groundless, of course, but the Ricci events 
produced one of the most dramatic developments in the centuries-long 
relationship between the Catholic Church and China.
    On the 24th of October, Pope John Paul II issued a statement to the 
Sinologists then meeting at Rome's Gregorian University on the theme of 
Encounters and Dialogue. In the course of his fairly long discourse, 
tracing the story of Ricci's contribution, the Holy Father turned to 
the present:

          The Chinese people, especially in more recent times, have set 
        themselves important objectives in the field of social 
        progress. The Catholic Church for her part regards with respect 
        this impressive thrust and far-sighted planning, and with 
        discretion offers her own contribution in the promotion and 
        defense of the human person, and of the person's values, 
        spirituality and transcendent vocation. The Church has very 
        much at heart the values and objectives that are of primary 
        importance also to modern China: solidarity, peace, social 
        justice, the wise management of the phenomenon of 
        globalization, and the civil progress of all peoples.

                             papal apology
    Then, after expressing the Church's affection for the Chinese 
people and her desire to be of service for the good of all the people, 
and noting the ``long line of generous missionaries'' and the many 
works of human development they accomplished down the centuries, 
especially in the fields of health care and education, he said the 
following:

          History, however, reminds us of the unfortunate fact that the 
        work of members of the Church in China was not always without 
        error, the bitter fruit of their personal limitations and of 
        the limits of their action. Moreover their action was often 
        conditioned by the difficult situations connected with complex 
        historical events and conflicting political interests. .  .  . 
        In certain periods of modern history, a kind of ``protection'' 
        on the part of European political powers not infrequently 
        resulted in limitations on the Church's very freedom of action 
        and had negative repercussions for the Church in China. .  .  . 
        I feel deep sadness for these errors and limits of the past, 
        and I regret that in many people these failings may have given 
        the impression of a lack of respect and esteem for the Chinese 
        people on the part of the Catholic Church. .  .  . For all this 
        I ask the forgiveness and understanding of those who may have 
        felt hurt in some way by such actions on the part of 
        Christians.

    He concluded by expressing ``the hope that concrete forms of 
communication and cooperation between the Holy See and the People's 
Republic of China may soon be established.''
                            the prc response
    What was the Chinese government's reaction? Virtual silence, one 
might almost say a kind of embarrassed silence, with a spokesman for 
the foreign ministry [Sun Yuxi] trucked out to repeat the standard 
mantra of the past: ``The Holy see must break relations with Taiwan'' 
and ``The Vatican must not use religion to interfere in China's 
internal affairs.''
    Interfering in China's internal affairs is the code term for 
China's ignoring its own constitutional guarantee of religious freedom. 
It is China's denial of the Church's right to exercise its normal and 
customary role of appointing bishops as heads of dioceses all over the 
world, and thus a government's interference in the internal affairs of 
the Church.
    Why were the authorities unable to react more positively to this 
quite extraordinary papal apology? For the same reason that they 
grossly over-reacted to the October 1, 2000 canonization of the Chinese 
martyrs, as a smokescreen to cover over the existing divisions within 
the Party. The overriding factor right now is the upcoming Party 
Congress this Fall, which is expected to usher in a new, somewhat 
younger, leadership. Bishop Joseph Zen, Coadjutor of Hong Kong, holds 
out the hope that this new leadership, and the rising of a political 
class of even younger people, many of whom will have studied abroad, 
will gradually bring about genuine change. Gradually perhaps over a 
period of 3 years, he thinks. And change, openness, is the only way to 
avoid the bloody outcome that some foresee; ``there are many unhappy 
people in China,'' the bishop notes [ZENIT interview, 2/20/02].
                       religious repression today
    In the meantime, religious expression continues to be either 
repressed, sometimes brutally, or controlled, although the controls 
over the registered Catholic Church are showing signs of wear and 
ineffectiveness. The vast majority of all the registered bishops have 
been reconciled with Rome, which the government obviously knows. The 
power of the Patriotic Association is greatly diminished and given to 
sometimes desperate gestures, such as the staged ordination of bishops 
on Epiphany 2000, timed to coincide with the Pope's ordaining 12 
bishops that same day.
    What's the status of religious persecution of Catholics right now? 
Over the past months, we've been treated to a kind of good cop-bad cop 
reporting on the State of religion in China. The Wall Street Journal in 
February claimed that ``China is rethinking its heavy-handed policies 
and taking a more tolerant line on mainstream groups.'' But at the same 
time, we know of the secret documents smuggled out by officials of the 
State Security Ministry and other government agencies that envision a 
still tighter crackdown on unauthorized religious groups. And at the 
beginning of Lent this year, mid-February, the news agency of the 
Vatican's missionary congregation issued a list of some 33 Catholic 
bishops and priests known to have been arrested or disappeared or under 
house arrest. The best known of these and the one for whom American 
ambassador Clark Randt has intervened is Bishop James SU Zhimin of 
Baoding, a well-respected figure who has been repeatedly arrested, 
released, and re-arrested. His whereabouts is presently unknown.
                               conclusion
    Is the end game in sight- We'll have to wait to see what the new 
leadership is like and, if more open to change, how long it will take 
for them to consolidate their positions. It seems clear that Jiang's 
modest moves for change in 1999 lost out to the hard-liners. The PRC 
has now decided that two can play at issuing human rights reports and 
has now put out its own report on the dismal human rights record of the 
United States, detailing the many perceived violations of human rights 
in this country, including, as one chapter has it, ``Wantonly 
Infringing upon the Human Rights of Other Countries.''
    Those of us who advocate for international human rights and 
religious freedom have our work cut out. I cite the instance of a 
recent and very detailed policy brief of the Carnegie Endowment for 
International Peace, ``Re-balancing United States-China Relations.'' 
Amidst a wide-ranging list of issues discussed, there is not a word 
about human rights, still less about religious freedom.
                                 ______
                                 

                  Prepared Statement of Paul Marshall

                             march 25, 2002
    Thank you for the opportunity to join this round table on the issue 
of religious freedom in China. Freedom House commends the Commission 
for monitoring this issue.
    Freedom House's Center for Religious Freedom is alarmed by mounting 
repression against the major religious and spiritual groups in China--
Protestant Christians, Roman Catholics, Tibetan Buddhists, Falun Gong, 
and Uighur Muslims. Beijing controls the five ``authorized'' religions 
(Protestantism, Catholicism, Buddhism, Islam and Taoism) by the 
Religious Affairs Bureau (RAB), controlled by the United Front Work 
Department, itself controlled by the Central Committee of the Communist 
Party. In turn, Party officials, by law must be atheists. The RAB 
registers and controls Protestant Christians all religious groups 
through the Three-Self Patriotic movement and the China Christian 
Council, Catholics through the Catholic Patriotic Association and 
Bishops Conference, and similar patriotic associations for Buddhists, 
Muslims and Taoists. Falun Gong is banned completely.
    China's new tactic of labeling religious groups as so-called 
``cults'' and then cracking down on them intensifies the repression of 
non-approved religion. After China stopped treating religious offenses 
as counter-revolutionary, religious offenses were treated as a type of 
civil offense, punishable by fines, or by minimal incarceration. This 
would be comparable to a ``misdemeanor'' in America (though punishable 
by possibly 3 years in a labor camp). With the introduction of the laws 
regulating ``heretical cults'' in October 30, 1999, religious offenses 
can now be classified as threatening national security, comparable to a 
``felony'' in America, and punishable by life sentences or even death. 
This tactic has been increasingly employed in the last 2 years, and 
government spokespersons maintain that believers are not being 
repressed by restrictive religion laws, but are criminals disrupting 
public and social order laws.
    The result of these developments has been a marked deterioration in 
religious freedom in China over the last year and in particular since 
Congress approved PNTR. China has not ratified the International 
Covenant on Civil and Political Rights. The Chinese government has not 
provided information or permitted unhindered access to religious 
leaders who are in prison, in detention, under house arrest, or under 
surveillance.
    The heightened crackdown may stem from frustration and political 
insecurity as authorities observe the astonishing revival of religion 
throughout China particularly through unsanctioned groups. Since the 
end of the Cultural Revolution, China's Christian churches, registered 
and underground, Catholic and Protestant, have been experiencing 
explosive growth. Thirteen million Protestants are registered with the 
government. Unregistered Protestants may number over 50 million, in 
house-churches, so named because services are held in houses.
    While this roundtable is focused on Catholics and Protestants, it 
is important to raise the situation of Falun Gong, which this month is 
facing perhaps its worst repression ever. Falun Gong officials in the 
U.S., say:

          Police have been ordered to ``shoot on sight'' anyone posting 
        or handing out written materials for Falun Gong. After 
        practitioners showed cable TV programs with facts about Falun 
        Gong on March 5 in the city of Changchun, Jiang Zemin issued a 
        ``Kill Without Mercy'' order. On March 15, Amnesty 
        International issued an Urgent Action request for ``Falun Gong 
        practitioners in Changchun City,'' saying, ``Amnesty 
        International believes they are at serious risk of torture or 
        ill-treatment .  .  . police `stop and search' checkpoints have 
        reportedly been established across the city. .  .  .'' 
        Consequently, 5000 or more practitioners in the Changchun area 
        have since been arrested, several practitioners have reportedly 
        `jumped' or `fallen' from tall buildings when pursued by 
        police, and police have secretly cremated the bodies of 
        numerous practitioners tortured to death by police. Latest 
        reports indicate that more than 100 have died in Changchun in 
        this spasm of violence by authorities in the past 3 weeks.

    We are concerned that some 33 Catholic bishops and priests are in 
prison, under house arrest, or under strict police surveillance, 
including Bishop Su Zhimin of Baoding in Hebei Province, who 
disappeared into custody in 1996. The Vatican's Fides News Service list 
13 bishops who have been arrested, as well as 20 priests, and says that 
this list is incomplete.
    Among Protestants, one of the most striking recent cases is Pastor 
Gong Shengliang, who was sentenced to death on December 5 on charges of 
operating an ``evil cult'' and on apparently trumped-up charges of rape 
and assault. The month-long period for deciding his appeal was extended 
on January 5 by a Hubei court following sharp international protest. In 
a letter, dated December 31, 2001, members of an underground church in 
China describe the torture and abuse that was applied to them by police 
to pressure them to testify against Gong:

          These few days, all of those arrested have been badly beaten 
        by the police. Ma and her boy Longfeng were both beaten almost 
        to death. Li Enhui fell unconscious and was awakened with cold 
        water and beaten again. They did this to her non-stop for 7 
        days and 7 nights. Xiao Yajun was also questioned 7 days and 7 
        nights. On July 20, we heard the news that Yu, who was arrested 
        in Ma's house, had been tortured to death.

    In efforts to find and apprehend Pastor Gong and suppress the South 
China Church, police arrested 63 congregants, severely beating at least 
25 Christians and torturing some with electric prods. The person whom 
the authors write was tortured to death is Yu Zhongju, a young mother, 
who had been arrested last May in a private house connected with Pastor 
Gong's congregation. She died in police custody in late July, after 
having being beaten.
    I will focus the rest of my remarks concerning China on what has 
been revealed in secret Chinese government documents, released in 
February, detailing an official crackdown against large, unregistered 
churches and other religious groups nationwide. Copies of the 
documents, along with translations, were provided to Freedom House's 
Center for Religious Freedom by Mr. Shixiong Li and Mr. Xiqiu (Bob) Fu 
of the New York-based Committee for Investigation on Persecution of 
Religion in China. Freedom House's Center had the official documents 
authenticated by expert and exiled former Chinese government 
journalist, Su Xiaokang.
    The seven documents, issued between April 1999 and October 2001, 
detail the goals and actions of China's national, provincial and local 
security officials in repressing religion. (The Freedom House analysis 
is available online at: www.freedomhouse.org/religion). They show that 
China's government, at the highest levels, aims to repress religious 
expression outside its control, and is using more determined, 
systematic and harsher criminal penalties in this effort. Hu Jin-tao, 
designated as the successor of President Jiang Zemin is quoted in the 
document as endorsing the drive against the Real God church. The 
Minister of Public Security is quoted giving the order to ``smash the 
cult quietly.'' (Document 4).
    Ye Xiaowen, the head of China's Religious Affairs Bureau, wrote in 
January 2002 that repression is not working and suggested that a more 
nuanced approach is needed. In fact, the documents reveal that a 
brutal, but more clandestine, approach is being employed to crush 
unregistered churches and religious groups.
    As a result, normal religious activity is criminalized, and, as the 
December death sentences brought against South China Church Pastor Gong 
Shengliang and several of his co-workers attest, the directives 
outlined in these documents are being carried out with ruthless 
determination.
    Several documents focus particularly on measures to ``smash'' the 
Christian South China church and the Real God Church, which, Chinese 
authorities state, rivals Falun Gong in its reach and dangerous 
effects. Other documents list several Christian churches, Falun Gong, 
the Unification Church, and other banned religious groups. In all, 14 
religious groups are identified in Document 1 as ``evil cults.''
    The documents indicate that Beijing may feel it is losing its 
battle to control religious expression. They note with palpable alarm 
that the Real God Church is growing rapidly throughout 22 Chinese 
provinces. Document 4 says that ``inner circles'' of the Communist 
Party and government officials have secretly joined the banned Real God 
Church, and instructs officials to find out who among them are members 
of the group.
    China is an officially atheist State that arrogates to itself the 
authority to define orthodoxy, determine dogma and designate religious 
leaders. The documents are notable for their crudeness in understanding 
the religions the government purports to control. Revealing a 
fundamental misunderstanding or deliberate misinterpretation of the New 
Testament, Document 1 uses a basic Christian doctrine that Christ is in 
every believer to accuse churches of ``deifying'' their leaders, a 
practice defined as ``cult-like.''
    Document 2 betrays deep paranoia on the part of Chinese officials. 
It raises particular concerns about public unrest over China's entry 
into the WTO which it ties to Western support of democracy movements 
(``Democratic Party of China''), and religious groupings, especially 
Falun Gong; it accuses the Vatican of ``still waiting for any 
opportunity to .  .  . draw the patriotic religious believers up to 
them and incite them to rebel.''
    In Document 4, ``Praying for world peace,'' ecumenical relations 
between churches, printing religious publications, and developing a 
diocesan, parish and prayer group-like organizational structure, are 
all seen as dangerous activities. Document 4 also views with alarm 
ecumenical relations between the Protestant house-church Real God and 
the underground Catholic Church. Real God is also said to have ties 
with Tiananmen Square student protest leaders, as well as in the 
Communist Party and the government.
    Measures to be taken against banned religious groups include 
surveillance, the deployment of special undercover agents, the 
gathering of ``criminal evidence,'' ``complete demolition'' of a 
group's organizational system, interrogation, and arrest, as well as 
the confiscation of church property, and homes in which meetings are 
held. Document 2 repeatedly refers to the use of ``secret agents'' to 
infiltrate ``cults,'' underground Catholics, businesses, joint 
ventures, people with ``complicated political backgrounds,'' 
prestigious colleges and universities, and other organizations.
    As the U.S. Commission on International Religious Freedom has 
recommended, U.S. policy should press the Chinese government to take 
effective steps in the following four areas:

    1. End its current crackdown on religious and spiritual groups.
    2. Reform its repressive legal framework and establish an effective 
mechanism to hold officials accountable for religious-freedom and 
related human rights violations.
    3. Affirm the universality of religious freedom and China's 
international obligations and ratify the International Covenant on 
Civil and Political Rights.
    4. Foster a culture of respect for human rights.

    The U.S. government's China policy should support and, as 
appropriate, fund human rights advocates within China, as well as 
those, wherever found, who are promoting the rule of law, legal reform, 
and democracy there. The U.S. Government should make sure that Tibetan 
and other ethnic minorities, as well as representatives of religious 
communities and other nongovernmental organizations, are included in 
exchange programs with China.
    Through public diplomacy, the United States should directly explain 
to the Chinese people this message and the reasons for our concern. 
Such efforts should include the expansion of Radio Free Asia and Voice 
of America broadcasts throughout China. Since the U.S. permits Chinese 
media, including the official Chinese Central Television Company, 
access to American markets, we should ensure that U.S. media, including 
broadcasting companies, are allowed a similar presence in Chinese 
markets. Also, the U.S. Government should ensure that U.S. companies 
doing business in China do not engage in practices that would 
facilitate violations of religious freedom and other human rights, such 
as disclosing employees' religious or spiritual activities or 
affiliations to Chinese officials.
                                 ______
                                 

                 Prepared Statement of Joseph M.C. Kung

                             march 25, 2002
    Ladies and gentlemen:
    When I entered this country 47 years ago in 1955, China was a young 
communist country. At that time, the communists were throwing the 
bishops, priests and their faithful into jail and labor camp.
    Forty-seven years later, China is still a communist country. China 
is still throwing the religious believers into jail and labor camp by 
thousands. Although China has changed by opening its door to the 
outside world, the persecution of religious believers has never 
stopped. This persecution has recently become so bad at a time when 
China is making significant economic progress, at a time when China has 
joined World Trade Organization, and at a time when China professes 
fighting terror, while it continues to create its own terror among its 
own religious believers.
    Since late 1999, the government of China has destroyed 1,200 
churches in one eastern province alone. An 82 year old priest, Father 
YE Gong-Feng was savagely tortured to unconsciousness and Father LIN 
Rengui was beaten so savagely that he vomited blood. Underground 
Catholic seminarian Wang Qing was tortured for 3 days, being suspended 
by his wrists, beaten, and forced fed with contaminated liquids that 
caused severe injury and illness. Catholic priest Hu Duo suffered 
broken legs in police beatings. Even a 12 year old girl could not 
escape the brutality. She told the interrogators that she had become a 
liturgy lector. As a result, she was beaten so savagely that she had to 
be hospitalized.
    There is a tiny village called Dong Lu in Hebei. In that village, 
there is a shrine for the Blessed Mother. Each year, tens of thousands 
of pilgrims visited this shrine from all over China. However, in May 
1996, 5,000 Chinese soldiers, supported by dozens of armed cars and 
helicopters, destroyed and leveled that shrine. The government 
confiscated the statue of the Blessed Virgin Mary and arrested many 
bishops and priests. Bishop Su Chimin, the underground bishop of this 
shrine, was arrested at least 5 times in the past and had already spent 
approximately 26 years in prison. He disappeared after he was last 
arrested in October, 1997. We do not even know if he is dead or alive. 
The auxiliary bishop of this shrine, Bishop An Shuxin, was last 
arrested in May, 1996. He has been in prison for the last 6 years. We 
do not even know where he is. The pastor of this shrine, Father Cui 
Xingang, was also arrested 6 years ago in May, 1996.
    There are approximately 50 bishops in the underground Roman 
Catholic Church. Almost every one of them is either arrested, or under 
house arrest, or under strict surveillance, or in hiding, or on the 
run. For instance, Bishop Jia Zhiguo, Bishop of Zhengding in Hebei, was 
just arrested 5 days ago. We do not know where he is.
    Obviously, there is severe on-going persecution of underground 
Roman Catholic in China at this time.
    The communists took over China in 1949. After 7 years of severe 
persecution, the communists failed to stamp out the Catholic Church. 
So, in 1957, the Chinese communist government created its own church 
called the Chinese Catholic Patriotic Association--in order to replace 
the Roman Catholic Church in China and to have complete control of the 
church.
    Although this Patriotic Association's Church calls itself 
``Catholic'', it does not take its mandate from the Pope. It takes 
orders only from the Chinese Government. It is under the sanction of 
the Chinese government. Therefore, it is not persecuted. To this day, 
the Patriotic Association continues to openly advocate independence 
from the Pope. Our Pope has refused to recognize this Patriotic 
Association, or the ``Official Church''.
    In contrast, underground Roman Catholics have no public churches in 
China because they are illegal there. A Holy Mass, a prayer service, 
and even praying over the dying by Roman Catholics are all considered 
illegal and subversive activities by the Chinese government. Religious 
services for the Roman Catholic Church can only be secretly conducted 
in private homes or deserted fields. The Chinese government deems these 
private gatherings of Roman Catholics as illegal, unauthorized, 
subversive and punishable by exorbitant fines, detention, house 
arrests, jails, labor camps, or even death.
    Approximately 5 months ago, Chinese government authorities arrested 
underground Bishop Lucas Li of Feng Xiang and 18 underground priests, 
and closed an underground monastery and two underground convents. The 
reason? The Patriotic Association was coming to town.
    The government is now forcing underground Roman Catholics to 
register with the Patriotic Association Refusing to do so is now liable 
to sentencing to 3 years' labor camp.
    Being ordained as an underground Roman Catholic priest and 
conducting evangelization without permission from the Chinese 
government are now also considered a crime punishable by 3 years in the 
labor camps. This punishment is illustrated in a court paper dated 
April 13, 2001 and is attached at the back of my speech.
    Let me say few words about Cardinal Kung. In fact, no description 
of the persecution of religious believers is complete without 
mentioning him, because he is a symbol of persecution in China.
    Cardinal Kung was the Bishop of Shanghai for 51 years until he died 
2 years ago on March 12. He was imprisoned for 32\1/2\ years, mostly 
under solitary confinement, because he refused to renounce the Pope. 
Pope John Paul II secretly created Bishop Kung a Cardinal in 1979 while 
he was still in jail and proclaimed him publicly a Cardinal 12 years 
later in 1991 after he arrived in the United States. Cardinal Kung 
lived in the United States for 12 years. When Cardinal Kung received 
his red hat in the Vatican, he received an unprecedented 7-minutes 
standing ovation from 7,500 people. When he died, the Pope called him 
``this noble son of China and of the Church.''
    In an interview with the Chinese Press in New York on February 12, 
1998, Mr. Ye Xiaowen, the director of the Religious Bureau of China, 
stated: ``Kung Pin Mei committed a serious crime by dividing the 
country and causing harm to its people.'' One month later in March 
1998, the Chinese government confiscated the passport of this then 97 
year old Cardinal Kung, officially exiling him and making him 
stateless.
    Why is the Chinese communist government so fearful of this 97-year-
old Cardinal that it had to confiscate his passport to prevent his 
return to China? Even after his death, Cardinal Kung was still 
persecuted and insulted by the Chinese government. After the Cardinal's 
death, the Chinese government issued a statement that ``Kung Pin Mei 
was a criminal of China found guilty by the Chinese court. Kung 
committed a serious crime of dividing the country and dividing the 
church. History will judge him for his crime.'' I believe that history 
will indeed judge. However, history will judge that Cardinal Kung is 
not a criminal. History will also judge that those religious believers 
who have been persecuted by the Chinese government are also not 
criminals. The criminals will be those who sent Cardinal Kung to life 
imprisonment. The criminals will be those who have been persecuting 
millions of Chinese religious believers who only want to practice their 
religion according to their conscience, not according to the choice of 
the government. The criminal will obviously be the Beijing government. 
Thank you.

                                   - 

</pre></body></html>
